U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  PUBLIC
                 RELEASE


    DEPARTMENT OF COMMERCE
   Improvements Are Needed in Commerce
Agencies’ Implementation and Oversight of
Interagency and Other Special Agreements
      Final Inspection Report No. IPE-9460/September 2000




             Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                          Final Report IPE-9460
Office of Inspector General                                                                                                 September 2000



                                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

I.        Most of the Agreements That We Reviewed Appeared to Serve Important and
          Appropriate Functions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
II.       Some Commerce Bureaus Have Improperly Entered into Informal
          Arrangements Without the Benefit of a Written Agreement . . . . . . . . . . . . . . . . . . . . . . . 11

III.      Some Agreements Have Been Used When a Traditional Procurement Contract
          Would Have Been More Appropriate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

IV.       Some Agreements Have Been Used When Financial Assistance Awards Would
          Have Been More Appropriate In Accordance With Federal Guidelines . . . . . . . . . . . . . . 19

V.        The Department Is Improving the Process for Preparing and Monitoring
          Agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   23
          A.    Commerce agreements do not consistently comply with federal requirements .                                                         23
          B.    The oversight process for reviewing departmental agreements is inadequate . . .                                                    32
          C.    Departmental policies and procedures for agreements are clearly needed . . . . . .                                                 37
          D.    Many bureaus also need policies and procedures for agreements . . . . . . . . . . . .                                              39

VI.       Commerce Bureaus Generally Do Not Adequately Track and Control Agreements . . . 43

VII.      Some Commerce Bureaus Need to Improve Their Systems and Procedures
          to Better Ensure Full Cost Recovery under Reimbursable Agreements . . . . . . . . . . . . . . 48

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

APPENDIXES:
     A:   Glossary of Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52
     B.   Office of Administration Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . 53
     C.   Office of the General Counsel Response to Draft Report . . . . . . . . . . . . . . . . . . . 56
U.S. Department of Commerce                                                    Final Report IPE-9460
Office of Inspector General                                                           September 2000



                                   EXECUTIVE SUMMARY

The Department of Commerce relies heavily on interagency and other special agreements to
perform its mission. Specifically, in fiscal year 1997, Commerce had more than 4,700
agreements, involving approximately $1.1 billion in funds received for reimbursable activities or
obligated to acquire goods or services from other parties. These agreements can be between
Commerce entities or between one Commerce unit and another federal agency, a state or local
government agency, a university or other educational institution, a not-for-profit organization, or
a private party. While agreements involve a significant amount of federal resources, they are not
subject to the same administrative controls as traditional procurement contracts, grants, or
cooperative agreements.

This is the final report of a series that we have issued on our Department-wide review of
agreements. It summarizes several cross-cutting issues we identified during our reviews of the
handling of interagency agreements at 10 Commerce bureaus or line offices. We also draw upon
work performed under other OIG reviews of agreements conducted during previous years. In
addition to identifying common problems that the different Commerce bureaus have experienced
in preparing and administering agreements, this report also highlights several “best practices”
which may be helpful to other bureaus and line offices. A summary of our specific findings
follows:

Most of the Agreements That We Reviewed Appeared to Serve Important and Appropriate
Functions We found that most bureaus and line offices are using agreements to cover activities
that should be funded by an agreement. In addition, the agreements are being used appropriately
to further Commerce’s varied missions. However, it is important to maintain diligent oversight of
the acceptance and implementation of agreements. For example, accepting too much
reimbursable work can divert a program from its primary mission. And, continuing to operate a
program in Commerce that is funded and guided mostly by another agency potentially hinders
the efficiencies that can be gained by properly aligning those functions in the other agency.
Agreements may often be necessary to fulfill Commerce’s many missions, but the over $1.1
billion in federal resources committed to them demand close management attention (see page 7).

Some Commerce Bureaus Have Improperly Entered into Informal Arrangements Without
the Benefit of a Written Agreement During our various reviews, we came across instances in
which bureaus performed work for other parties without the benefit of a written agreement. By
proceeding with these efforts without a written agreement, they are violating Departmental and
agency policies and, in the process, are putting the U.S. government’s interests and credibility at
risk (see page 11).



                                                  i
U.S. Department of Commerce                                                           Final Report IPE-9460
Office of Inspector General                                                                  September 2000



Some Agreements Have Been Used When a Traditional Procurement Contract Would Have
Been More Appropriate We found that several Commerce agencies circumvented procurement
laws and regulations by using agreements instead of traditional procurement contracts to acquire
goods and services. In our individual agency reviews, we also found, for example, instances
where a Commerce bureau improperly managed a procurement that was requested through an
interagency agreement. To correct these problems, we recommend that program officials be
informed, through training or other guidance, about how to best determine when a procurement
contract, rather than an agreement, would be the most appropriate instrument(s) for an
anticipated funds transfer to a private entity (see page 16).

Some Agreements Have Been Used When Financial Assistance Awards Would Have Been
More Appropriate In Accordance With Federal Guidelines During our individual reviews of
Commerce agencies, we questioned whether some agency officials and staff were improperly or
unwisely using agreements in lieu of a grant or cooperative agreement to provide financial
assistance. In one graphic example, we concluded that agreements for an entire program were
unwisely used instead of financial assistance awards (grants or cooperative agreements). We
found that (1) the purpose of the existing agreement better fit the definition of a cooperative
agreement or a grant and (2) changing the legal instrument to a grant-type award improved the
funding process and strengthened the agency’s ability to oversee and monitor projects. We have
also recommended that Commerce officials be informed about how to determine when a
cooperative agreement or grant would be the most appropriate instrument(s) for an anticipated
funds transfer to a private or public entity. Departmental policies and oversight should be clear
and vigilant to ensure that the correct funding instruments are used (see page 19).

The Department Is Improving the Process for Preparing and Monitoring Agreements In a
September 1998 report to the Chief Financial Officer and Assistant Secretary for Administration
and the General Counsel, 1 we urged the Department to take a stronger role in overseeing how the
bureaus draft, implement, and administer agreements. In that report, we also discussed the most
common deficiencies found during our reviews, including failure to comply with federal
requirements and to receive necessary programmatic, administrative, and legal review. We are
pleased to note that the Department has since agreed to implement Department-wide guidance
for agreements and is currently working with the bureaus to prepare that guidance. The issuance
of the handbook is a priority of the Department and staff are working to have it issued as soon as
possible (see page 23).




        1
           Office of the Secretary–Interagency and Other Special Agreements Require Better Management and
Oversight, IPE-10418, September 1998.

                                                     ii
U.S. Department of Commerce                                                   Final Report IPE-9460
Office of Inspector General                                                          September 2000



Commerce Bureaus Generally Do Not Adequately Track and Control Agreements A
common problem we encountered during our reviews of Commerce bureaus and the systems
and processes they have for managing agreements was that few bureaus were able to adequately
track and control their agreements. The bureaus had different ways of classifying agreements,
and frequently overlooked agreements made with another Commerce agency. In some cases,
bureaus still track expired agreements and some track open but inactive agreements. As a result,
we found inconsistent reporting of agreements among Commerce bureaus. In our previously
issued inspection reports, we made recommendations to both the Department and the bureaus to
develop databases to track and control their agreements. We are aware that some progress has
been made to date to implement these recommendations. At the same time, we are also aware
that this matter requires additional management attention and oversight (see page 42).

Some Commerce Bureaus Need to Improve Their Systems and Procedures to Better Ensure
Full Cost Recovery under Reimbursable Agreements Considering the significant amount of
reimbursable work performed by Commerce bureaus, full cost recovery is a serious concern. An
agency’s failure to recover actual costs or, in the case of a joint project, to equitably apportion
full costs could also result in a circumvention of the appropriations process because it could
cause the agency to undercharge or overcharge the sponsoring organization. Unfortunately, we
found many examples where Commerce bureaus do not adequately account for and recover full
costs for reimbursable activities. To correct this problem, we suggest that bureau chief financial
officers and other senior management be held accountable for implementing reliable systems for
identifying and recovering full costs on reimbursable activities (see page 48).

On page 51, we offer recommendations to the Chief Financial Officer and Assistant Secretary for
Administration and the Acting General Counsel to address the cross-cutting concerns raised in
this report. These recommendations are in addition to the recommendations made in the 10
inspection reports that we issued previously covering interagency agreements of individual
bureau and line offices (see page 2 for a list of the bureaus and line offices covered in those
inspection reports).



In responding to our draft report, the Acting Director, Office of Executive Assistance
Management stated that the Department is in agreement with our findings and recommendations
and that efforts are underway to take corrective action on the findings contained in the report. In
addition, the Assistant General Counsel for Administration stated in her response to our draft
report that the Office of the General Counsel was in complete agreement with our
recommendations and would continue to work with the OIG staff and appropriate staff in the
Office of Administration to adopt the recommendations.



                                                iii
U.S. Department of Commerce                                                                    Final Report IPE-9460
Office of Inspector General                                                                           September 2000



                                               INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of the Department of Commerce’s management of
interagency and other special agreements. Fieldwork was performed during the period from May
1997 through April 2000, in accordance with the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operations, including current and foreseeable problems. Inspections are also
done to detect and prevent fraud, waste, and abuse, and to encourage effective, efficient, and
economical operations. By highlighting problems, the OIG intends to help managers move
quickly to address those identified during the inspection and avoid their recurrence in the future.
Inspections may also highlight effective programs or operations, particularly if they may be
useful or adaptable for agency managers or program operations elsewhere.

                                           PURPOSE AND SCOPE

Interagency and other special agreements are mechanisms for federal agencies to define terms for
performing work for others, acquiring work from others, or coordinating complementary
programs. These agreements can be between Commerce entities; or between one Commerce
unit and another federal agency, a state or local government agency, a university or other
educational institution, a not-for-profit organization, or a private party. They involve a significant
amount of federal resources, but are not subject to the same administrative controls as traditional
procurement contracts, grants, or cooperative agreements.

We defined interagency and other special agreements as those agreements that are not traditional
procurement contracts, grants, or cooperative agreements.2 For simplicity, we use the term
“agreement” to refer to the various types of interagency or other special agreements within our



         2
            The Federal Grant and Cooperative Agreement Act of 1978 defines these types of agreements:
Procurement contracts—legal instruments “reflecting a relationship between the United States Government and a
State, a local government, or other [non-federal] recipient when . . . the principal purpose . . . is to acquire (by
purchase, lease, or barter) property or services for the direct benefit or use of the United States Government” (31
U.S.C. § 6303); Grants—legal instruments used when “(1) the principal purpose of the relationship is to transfer a
thing of value to a State or local government or other recipient to carry out a public purpose of support or stimulation
authorized by a law of the United States . . . and (2) substantial involvement is not expected between the executive
agency and the State, local government, or other recipient when carrying out the activity contemplated in the
agreement” (31 U.S.C. § 6304); Cooperative agreements—differ from grants only in that they are to be used when
substantial involvement by the executive agency is expected (31 U.S.C. § 6305).

                                                           1
U.S. Department of Commerce                                                           Final Report IPE-9460
Office of Inspector General                                                                  September 2000



scope. Agreements can include memoranda of agreement, memoranda of understanding, joint
project agreements, purchase orders that document both parties’ acceptance, or any other
document that details the terms of an agreement and the parties’ acceptance. Agreements can
transfer funds from one party to the other, or bind one or both parties to commit funds or
resources to a project.

This is the final report of a series issued on our Department-wide review of agreements. The
purpose of our inspections was to assess the effectiveness and efficiency of Commerce processes
for undertaking agreements among its bureaus and with outside agencies or parties. The scope of
our inspections included determining: (1) the appropriateness and advisability of Commerce
agreements as funding mechanisms for specific projects, (2) the extent to which Commerce
programs are supported through and rely on these agreements, (3) the relevance of agreements to
departmental goals and objectives, and (4) whether Commerce agreements possibly
circumvented procurement or financial assistance regulations. In addition, we evaluated the
bureaus’ administrative, managerial, and programmatic oversight of agreements. The scope of
our inspections did not include cooperative research and development agreements (CRADAs),
which are primarily used by federal laboratories to partner with nonfederal entities to facilitate
the transfer of technologies for future commercial application.

Since 1997, we issued reports on the following Commerce entities: the Office of the Secretary,
the Minority Business Development Agency, the International Trade Administration, the Bureau
of the Census, the National Institute of Standards and Technology, the Patent and Trademark
Office, the National Technical Information Service, and the National Oceanic and Atmospheric
Administration’s National Weather Service (NWS), National Marine Fisheries Service (NMFS),
and Office of Oceanic and Atmospheric Research (OAR).3 We also interviewed cognizant
officials from the other major organizational units within Commerce. This report relies on this
previous inspection work in the area of agreements, as well as other reports issued by the OIG
within the previous six years, which covered some aspect of agreement activity.


        3
          Office of the Secretary–Interagency and Other Special Agreements, IPE-10418; Use of Cooperative
Agreements Will Improve Management and Oversight of the Minority Business Opportunity Committee Program,
IPE-10309, March 1998; Improvements are Needed in ITA’s Management of Interagency and Other Special
Agreements, IPE-10752, September 1998; Bureau of the Census–Interagency Agreements Require Improvements,
IPE-10523, March 1999; NIST’s Policy of Allowing Informal Collaborations with Non-Federal Researchers
Requires Additional Controls, IPE-10854, September 1998; Patent and Trademark Office–PTO Has Improved its
Management of Interagency Agreements, IPE-10728, September 1999; National Technical Information
Service–Management Over Interagency Agreements Needs Improvement, IPE-11021, June 1999; NWS Requires
Better Management and Oversight of Interagency and Other Special Agreements, IPE-10417, March 1999;
National Marine Fisheries Service’s Interagency and Other Special Agreements Require Additional Improvements,
IPE-10775, September 1998; OAR’s Interagency and Other Special Agreements Require Additional Improvements
for Compliance, IPE-10310, May 1998.

                                                     2
U.S. Department of Commerce                                                 Final Report IPE-9460
Office of Inspector General                                                        September 2000



For each of the 10 inspection reports on agreements that we issued, we tried to determine the
number, dollar value, and type of agreements for each bureau or line office reviewed. We then
selected a representative sample of agreements to analyze. In addition, we reviewed background
documentation relating to the relevant laws and departmental policies and procedures pertaining
to these agreements, including the Economy Act, the Department’s joint project authority, the
Intergovernmental Cooperation Act, relevant Department Administrative Orders, and the
Department of Commerce Accounting Principles and Standards Handbook. We also
conducted telephone and/or personal interviews with cognizant Commerce staff to further
evaluate certain agreements. In preparing this cross-cutting report, we contacted some agency
officials to follow up on our earlier recommendations and to help determine the progress of
corrective actions taken in response to our initial agency reports.




                                               3
U.S. Department of Commerce                                                 Final Report IPE-9460
Office of Inspector General                                                        September 2000



                                       BACKGROUND

Commerce has an expansive mission. Its bureaus promote U.S. exports, develop innovative
technologies, gather and disseminate statistical data, measure economic growth, grant patents and
trademarks, promote minority entrepreneurship and economic development, predict the weather,
and monitor stewardship of the nation’s atmospheric and oceanic resources. Other federal
agencies and nonfederal organizations either have similar missions or require information or
services from Commerce bureaus to fulfill their own unique missions. Agreements are one
method for Commerce and other parties to formally agree to share information, provide needed
services, or coordinate their programs to optimize the benefits from each entity’s efforts. If
properly monitored and controlled, agreements are necessary to define the roles and
responsibilities of each of the parties so that the greatest return is realized from similar or
complementary programs.

Figure 1: Department of Commerce Organizational Chart




                                               4
U.S. Department of Commerce                                                                  Final Report IPE-9460
Office of Inspector General                                                                         September 2000



In fiscal year 1997, Commerce had more than 4,700 agreements, involving approximately
$1.1 billion in funds received for reimbursable activities or obligated to acquire goods or services
from other parties (see Table 1 below).4 Additional Commerce resources were committed to
performing activities under memoranda of understanding or agreement, which involved no
transfers of funds. The distribution of agreements ranges from 15 for BXA to more than
2,000 for NOAA.

Table 1: Summary of Department of Commerce Agreements (Fiscal Year 1997)

                                                               Interagency and Other Special Agreements
 Department of Commerce Bureau
                                                                 Estimated Value             Number Identified
 Bureau of Export Administration                                            $2,342,000                           15
 Economic and Statistics Administration                                    213,509,000                          756
 Economic Development Administration                                        14,929,000                           33
 International Trade Administration                                         36,209,000                          109
 Minority Business Development Agency                                         3,591,000                          23
 National Oceanic and Atmospheric Administration                           470,015,000                        2,038
 National Telecommunications and Information
 Administration                                                             30,780,000                          120
 Office of the Secretary                                                    23,970,000                          206
 Patent and Trademark Office                                                49,215,000                           55
 Technology Administration                                                 267,070,000                        1,400
 Total                                                                $1,111,630,000                         4,755



This report summarizes the major observations and recommendations from the reports this office
recently issued on 10 separate organizational units within Commerce. We also rely on other


         4
           The number of Commerce agreements and the associated funding are estimates based on the best
information available to us at the time of this review. As discussed on page 42, neither the Department nor the
bureaus have a database or other record-keeping system that has complete and reliable information about all types of
agreements.

                                                          5
U.S. Department of Commerce                                                  Final Report IPE-9460
Office of Inspector General                                                         September 2000



recent OIG work on issues related to agreements. Common problems are identified along with
recommendations that should improve the processing and administration of agreements
throughout the Department. Finally, we also highlight several instances of “best practices” for
other bureaus and line offices to possibly apply.




                                                6
U.S. Department of Commerce                                                                    Final Report IPE-9460
Office of Inspector General                                                                           September 2000



                                OBSERVATIONS AND CONCLUSIONS

I.       Most of the Agreements That We Reviewed Appeared to Serve Important and
         Appropriate Functions

Commerce bureaus are mandated to perform a wide variety of activities. Other federal agencies
and nonfederal parties either have similar missions or require information or services from
Commerce bureaus to fulfill their own unique missions. In the past, the OIG has criticized
Commerce agencies for failing to coordinate their efforts with other parties with similar or
duplicative programs. Agreements are one method for agencies to formally agree to share
information, provide needed services, or coordinate their programs to optimize the benefits from
each agency’s efforts.

Research programs provide a good example of why agreements are often necessary and
beneficial. Commerce has several programs that were established or have become the centers of
expertise in the federal government for their types of research. NWS, for example, was
designated by the Bureau of the Budget (now the Office of Management and Budget) as the sole
civilian provider of meteorological services and research. Other legislation or presidential orders
also provide that other Commerce bureaus should provide special services to other federal and
nonfederal entities.5 These authorities, combined with the statutory principle that goods or
services provided to outside individuals and entities are supposed to be self-sustaining, explain
and support why many Commerce programs receive a significant amount of reimbursable
funding.

If control is maintained on the type of reimbursable work that is accepted and if that work does
not unfairly compete with the private sector, building experience in Commerce-related research
that other federal agencies can rely on can help prevent duplication of effort. By contracting with
Commerce, these other agencies do not have to invest in facilities, equipment, and personnel to
develop their own research capabilities. Also, the Commerce research facilities can benefit from
research advances made during reimbursable projects, expanding the positive impact to other
reimbursable projects and Commerce mission-related research.

Other Commerce agencies have specific mandates to provide services to or receive services from
other federal and nonfederal parties. For example, Census’s authorizing legislation allows it to
“acquire by purchase or otherwise” information pertinent to its work from “states,


         5
          For example, NIST’s authorizing legislation states that it “should serve industry, trade associations, state
technology programs, labor organizations, professional societies, and educational institutions by disseminating
information on new basic technologies including automated manufacturing processes” (15 U.S.C. § 271(a)(7)).

                                                           7
U.S. Department of Commerce                                                            Final Report IPE-9460
Office of Inspector General                                                                   September 2000




counties, cities, or other units of government, or their instrumentalities.”6 Federal departments
and agencies may also be called upon and compelled by the Secretary of Commerce to provide
information useful to Census for its work. In addition, Census has authority under 13 U.S.C. § 8
to enter into joint statistical projects with non-profit organizations or agencies.

Agreements may also be the most cost-effective method of obtaining services, thereby permitting
funds saved to be redirected to other program functions. For example, NWS has an agreement
with the Coast Guard that allows it to use Coast Guard vessels for the transport, installation,
extraction, and maintenance of deep water data buoys. Because NWS usually has access to
existing Coast Guard cruises for free, it saves the costs that would normally be paid to a private
vessel specially rigged to perform these functions. Through this arrangement, NWS is able to
support more buoys in more locations than would be possible by obtaining the services through
traditional procurement contracts.

However, these benefits must be balanced with the problems that can arise with agreements.
During past reviews, we have found instances where reimbursable funding has diverted the
attention of a Commerce agency from its core mission. In a 1994 inspection report,7 we
expressed our concerns that the NTIA’s Institute for Telecommunication Sciences (ITS) was
overly-reliant on reimbursable funding. Its fiscal year 1993 budget consisted of $3.8 million in
direct funding and $8.2 million in reimbursable funds. We determined that, because of the large
amount of reimbursable work done by ITS and the questionable priority of some of this work,
the size and staffing of its laboratory were larger than necessary to accomplish NTIA’s primary
mission. The increased volume of such work shifted much of the laboratory’s focus to projects
that had little relevance to Commerce’s priorities, and added to the size of ITS’s permanent staff,
as ITS tended to hire permanent personnel to staff these temporary reimbursable projects. This
practice resulted in continual employment growth, which in turn triggered the need to solicit
future funding. ITS was left vulnerable to the uncertainty of receiving sufficient funding from
others.

In another example, we determined that a Commerce program that received a significant amount
of reimbursable funding should be transferred to its largest sponsoring agency.8 NOAA’s Office


        6
            13 U.S.C. § 6.

        7
            NTIA Interagency Agreements, Institute of Telecommunication Sciences, IRM-5723, January 1994.
        8
            Office of Aeronautical Charting and Cartography Should Be Transferred to FAA, IPE-8646, September
1996.

                                                       8
U.S. Department of Commerce                                                               Final Report IPE-9460
Office of Inspector General                                                                      September 2000



of Aeronautical Charting and Cartography prepares aeronautical charts and maps for the federal
government and the public. Its largest customer is the Department of Transportation’s Federal
Aviation Administration (FAA), with which the Office of Aeronautical Charting and Cartography
has an agreement detailing services to be provided and how those services will be paid for. After
evaluating several operational and organizational options, we concluded that the Office of
Aeronautical Charting and Cartography should be transferred to FAA, with which it is closely
associated through its funding, aviation safety mission, and program direction.

We found that FAA both directs what charts and other products are required for public and FAA
use, and provides the necessary information to prepare and maintain those charts. We
determined that by combining the programmatic direction and information source (FAA) with
the functional operation (Office of Aeronautical Charting and Cartography) in the same
organizational structure, increased efficiencies would be realized. Operationally, consolidation
should improve communication and coordination, increasing productivity and reducing the need
for liaisons to transmit FAA’s requirements to NOAA. The Congress agreed and effective
October 1, 2000, the Office of Aeronautical Charting and Cartography will be part of FAA.9

We have also found that agreements may be appropriate and consistent with Commerce’s
mission, but they can be abused. In two 1997 inspection reports,10 we criticized NOAA for failing
to maintain adequate financial controls over its weather satellite programs. Under a 1973
memorandum of agreement, NOAA determines the general requirements for new satellites and
operates them once they are in orbit, while the National Aeronautics and Space Administration
(NASA) handles their acquisition and launch. NOAA and NASA work together to plan and
budget for the satellite programs and then NOAA includes funding in its annual budget request
based on NASA’s projected need for new funding.

Based on our concerns about how large balances of unspent NOAA funds had accumulated at
NASA, our reviews identified $180.6 million in funds to be put to better use as a result of
NOAA’s failure to exercise adequate financial control over the transfers.11 The excess funds
represented funding that was not needed to meet NASA’s current year or forward funding


        9
             See Public Law No.106-181, the “Wendell H. Ford Aviation Investment and Reform Act for the 21st
Century.”

        10
            Excess Funding in the Polar Orbiting Satellite Program, OSE-8797-7-0001, March 1997; Excess
Satellite Funding Indicates Need For Better Financial Controls, OSE-8797-7-0002, September 1997.

        11
         $101.3 million was identified in OSE-8797-7-0001, March 1997, and $79.3 million was identified in
OSE-8797-7-0002, September 1997.

                                                         9
U.S. Department of Commerce                                                 Final Report IPE-9460
Office of Inspector General                                                        September 2000



requirements and that could have been better used to support other NOAA critical program needs
or to reduce future satellite budget requests. By sending large amounts of funds to NASA,
NOAA was able to avoid having to identify the unspent funds as unobligated carryover balances,
which enabled it to escape the scrutiny such funds receive from the Department, OMB, and
Congress. NOAA and the Department agreed to implement procedures to prevent the
accumulation of excess funds and to properly record carryover in the future.

These examples illustrate the need to maintain diligent oversight of the acceptance and
implementation of agreements. Accepting too much reimbursable work can divert a program
from its primary mission and place its resources at risk. And, continuing to operate a program in
Commerce that is funded and guided primarily by another agency hinders the efficiencies that
can be gained by properly aligning those functions in the other agency. Finally, using agreements
to distort and manipulate the budget process seriously damages Commerce’s credibility and can
hinder the government’s or department’s ability to make the best use of taxpayers’ dollars.
Agreements may often be necessary to fulfill Commerce’s many missions, but the over $1.1
billion in resources committed to them demands close management attention.




                                               10
U.S. Department of Commerce                                                              Final Report IPE-9460
Office of Inspector General                                                                     September 2000



II.     Some Commerce Bureaus Have Improperly Entered into Informal Arrangements
        Without the Benefit of a Written Agreement

We have found several examples in which bureaus performed work for other parties without the
benefit of a written agreement. By proceeding with these efforts without a written agreement,
they are violating their own agency’s policies and putting the U.S. government’s interests and
credibility at risk. In addition, as identified in several recent OIG reports, there are numerous
examples of Commerce programs that would operate more efficiently and effectively if they
formally coordinated their efforts with other federal and nonfederal parties. Agreements would
be one way to formalize existing relationships with other parties or to initiate closer coordination.

Written agreements better define project responsibilities

In one of our recent reports,12 we discussed agreements entered into by ITA’s U.S. Export
Assistance Centers (USEACs), located in nearly 100 cities throughout the United States.13 Some
USEAC sites are operating under informal arrangements that are not documented in written
agreements or not forwarded to headquarters for review and clearance. Although some officials
said that they send all of their agreements through US&FCS headquarters and the Department’s
Office of the General Counsel (OGC) for review and clearance, other field officials were not so
certain. At least one office director said that he seldom entered into formal written agreements
with his local trade promotion partners because he finds this to be too constraining and time
consuming given the time it would take to produce a written agreement and have it approved by
the leadership of each participant.

Participation by local organizations, particularly state and local governments and nonprofit trade
associations, is an essential part of the USEAC concept. We recommended that USEACs
regularly pursue written agreements with their local trade promotion partners. Negotiating and
formalizing existing or future relationships helps to better define each partner’s responsibilities
and expectations. USEACs can then have a firmer basis on which to rely for the assistance and
support of their partners.



        12
             ITA’s Interagency and Other Special Agreements, IPE-10752.

        13
            USEACs were created as part of the National Export Strategy, which is developed by the Trade
Promotion Coordinating Committee, an interagency body composed of representatives of federal agencies involved in
trade promotion. The USEACs, with a national network of “hub” sites staffed by representatives from US&FCS,
Small Business Administration, and the Export-Import Bank of the United States, linked to “spoke” sites of a few
US&FCS staff, offer “one-stop” shopping for small-to-medium U.S. exporters seeking export counseling,
information, financial assistance, and other trade promotion services.

                                                       11
U.S. Department of Commerce                                                    Final Report IPE-9460
Office of Inspector General                                                           September 2000



Written agreements provide important protections
for Commerce’s research organizations

During our recent reviews of Commerce bureaus’ management of agreements, we became aware
of several risks associated with allowing nonfederal researchers to work in Commerce facilities
without a written agreement. As discussed below, these risks relate to the assignment of
intellectual property rights, access to sensitive information, and liability for injuries. Commerce
bureaus should be aware of these concerns as they draft guidance on agreements and as they
make decisions about how to handle these collaborations as they arise.

First, Commerce has several research organizations that promote innovation through individual
achievement and collaborative efforts. If a visiting researcher has a “flash of brilliance” that
leads to an invention, the ownership of the intellectual property rights of that invention is
ambiguous without a written agreement.

Written agreements are beneficial to Commerce agencies and the other parties because they
assign intellectual property rights before an invention occurs. Commerce’s interests are
protected to some degree even when no agreement is signed. Under the common law of
intellectual property rights, the parties would have rights to inventions as follows: (1) inventions
by the government alone would belong to the government, (2) inventions by the nonfederal
researcher alone would belong to that researcher or his/her employer, or (3) inventions created
jointly by the government and the nonfederal researcher would be jointly owned. A written
agreement is more beneficial to the government, however, because it reduces ambiguity by
informing all parties of their respective rights before the collaboration occurs. Such an
agreement could alter the common law rules by giving the government more rights.

Another disadvantage of having no written agreement is that the government is not guaranteed a
license to use all inventions created out of the collaboration. A license is not equivalent to
ownership, but it allows the licensee to use the intellectual property, while protecting it from a
claim of patent infringement by the owner. A written agreement can ensure that the government
has at least a license to use inventions created during collaborations with nonfederal parties. A
written agreement, therefore, is in the government’s best interest because it allows the
government to continue to use and apply valuable technology.

Second, we are concerned about the risk of nonfederal researchers having improper access to
sensitive information. Commerce agencies are required by law to ensure the security of both
proprietary and national security material. Relevant statutes and regulations include the
Economic Espionage Act, the Trade Secrets Act, and the Department’s Personnel Security
Manual. Considering recent security problems with foreign visitors at other federal


                                                12
U.S. Department of Commerce                                                              Final Report IPE-9460
Office of Inspector General                                                                     September 2000



laboratories,14 we have concerns about the lack of controls over visiting researchers working in
Commerce facilities without an agreement.

The last potential weakness of concern to us is that by permitting informal collaborations,
visiting researchers may obtain unauthorized access to proprietary materials.15 Depending on
the facilities, there may be only limited proprietary information, but the existence of any such
material is of concern to us. As discussed in our 1998 report on NIST’s policy of allowing
informal collaborations with non-federal researchers, in some cases, laboratory work involving
sensitive material may not be physically separated from other areas where nonsensitive work is
being conducted.16 Written agreements provide some protection from improper disclosure of
information. They can contain non-disclosure provisions that ensure that any proprietary
information learned during the relationship with a Commerce agency will not be disclosed to a
third party. These provisions protect Commerce and the other party by clearly describing each
party’s responsibilities for protecting information. The agreements have the added benefit of
providing a record of the activities that involve sensitive information.

Written agreements can improve coordination between federal agencies

During our 1998 review of PTO’s plans to acquire additional space to consolidate its facilities and
operations, we found that the project suffered from the lack of an interagency agreement with the
General Services Administration.17 Without such an agreement, there were a number of
important undefined factors that could have adversely affected the project, including the fee
structure for GSA’s efforts, PTO’s rights to turn back unneeded space, and GSA’s role as
construction manager. In its response to our draft report, PTO agreed with our recommendation
that it should execute an agreement with GSA. Subsequently, an agreement was negotiated and
put in place.




        14
           Department of Energy: DOE Needs to Improve Controls Over Foreign Visitors to Weapons
Laboratories, General Accounting Office, GAO/RCED-97-229, September 25, 1997.

        15
             This could be a particular problem at the Department’s NIST laboratories.

        16
           NIST’s Policy of Allowing Informal Collaborations with Non-Federal Researchers Requires
Additional Controls, IPE-10854, September 1998.
        17
             PTO Needs to Refine Its Space Consolidation Planning, IPE-9724, March 1998.

                                                         13
U.S. Department of Commerce                                                          Final Report IPE-9460
Office of Inspector General                                                                 September 2000



During a review of ITA’s trade promotion efforts, we found several instances where ITA and
other Commerce bureaus would benefit from a formal, written agreement.18 First, we reviewed
several economic adjustment grants made by EDA that related to trade promotion. Our review of
two of the five grants indicated that EDA made some efforts to coordinate its review of the grant
proposals, but requested comments from the wrong organizational unit in ITA or the wrong
US&FCS regional office. The lack of coordination complicated ITA’s efforts to coordinate its
trade promotion activities with other partners and could have resulted in unnecessary duplication
of effort. We concluded that EDA and ITA needed a memorandum of understanding specifying
each agency’s roles and responsibilities in the area of international trade, and how they would
better coordinate their future activities. More specifically, we recommended that EDA notify
designated officials in US&FCS as soon as possible of potential awards dealing with international
trade in an effort to get the appropriate ITA unit’s assessment of such awards.

Similarly, we found during that same review that minority business development centers, funded
by MBDA, regularly counsel exporters, but do not then refer these clients to the local US&FCS
office. Although MBDA’s headquarters does not currently provide its centers with any guidance
on international trade-related activities, MBDA and ITA were in the process of developing a
memorandum of understanding outlining each agency’s responsibilities as they relate to export
promotion of minority firms.

Finally, we discovered during that same review that NTIA proposed to the Secretary of
Commerce to take the lead in Commerce’s trade promotion for the telecommunications industry
sector. This proposal was not coordinated with ITA, which in its Trade Development program
unit, has its own group of trade specialists assigned to follow the telecommunications industry.
We recommended that both agencies institutionalize their respective roles and responsibilities by
revising the relevant Department Organizational Orders and signing an interagency agreement
that details how they will work together. With better coordination at the departmental level for
trade promotion, and with clearer guidelines for preparing interagency agreements, situations
such as this would hopefully be minimized.

As these examples indicate, there are many circumstances when a written agreement would
benefit the Department. Commerce officials should therefore be encouraged to initiate written
agreements when a long-term or otherwise significant relationship is anticipated. These
collaborations can range from the commitment of funds to a mutual effort to coordinating
existing activities to achieve the greatest return. In addition, a written agreement should be
required in every case where a transfer of funds is intended. The agencies should also be


        18
          Management Improvements Needed to Better Prepare for the Export Challenges of the 21st Century,
IPE-9904, March 1999.

                                                    14
U.S. Department of Commerce                                                   Final Report IPE-9460
Office of Inspector General                                                          September 2000



encouraged to regularly review existing relationships to identify opportunities to improve
operations by initiating or revising a written agreement.




                                                15
U.S. Department of Commerce                                                                  Final Report IPE-9460
Office of Inspector General                                                                         September 2000



III.     Some Agreements Have Been Used When a Traditional Procurement Contract
         Would Have Been More Appropriate

Periodically, we have reported that Commerce agencies have circumvented procurement laws
and regulations by using agreements instead of traditional procurement contracts. For example,
in 1993, we found that the Census Bureau misused its joint statistical agreement authority under
13 U.S.C. § 8.19 The primary purpose of most of the agreements we examined during that review
appeared to be the acquisition of services for the bureau’s direct benefit and use. Under law,
executive agencies are to use traditional contracts for this purpose. In addition, we found that the
Census Bureau did not require its program offices to certify that proposed joint projects with
certain nonprofit organizations complied with Department policy that encourages open
competition.20 In fact, the types of services performed under most agreements we examined
could have been performed by other qualified organizations. All joint projects with nonprofits
are now entered into pursuant to the Department’s joint project authority, contained in
15 U.S.C. § 1525.

We have also found instances where a Commerce bureau improperly managed procurement
contracts related to agreements. In 1997, we reported numerous procurement deficiencies during
NTIS’s implementation of the CyberFile project, an on-line tax-filing system that NTIS was
developing for the Internal Revenue Service (IRS) through an interagency agreement.21 Our
inspection disclosed that NTIS’s programmatic and procurement planning for CyberFile was
grossly inadequate and that its use of delivery order contracts and interagency agreements was
highly questionable. Specifically, because of poor planning, NTIS:

         l         Underestimated the cost and resources required to develop CyberFile, then used
                   sole-source Small Business Administration 8(a) contracts, which were inadequate
                   to handle the required volume of effort, and which in turn exceeded the $3 million
                   threshold for such contracts.



         19
              Census Bureau’s Administration of Joint Statistical Projects, SED-5049, February 1993.

         20
             In responding to our draft report, the Acting Director, Office of Executive Assistance Management stated
that our report implied that Department policy encourages open competition for joint project agreements. He said
that while competition is required and/or encouraged, as appropriate, for procurement contracts and financial
assistance awards, there is no stated policy concerning competition for Commerce’s joint project authority. We
agree. However, we believe competition for agreements entered into under the joint project authority is desirable and
should be carried out, to the maximum extent practical.

         21
              Management and Procurement Deficiencies Related to the CyberFile Project, IPE-9364, March 1997.

                                                         16
U.S. Department of Commerce                                                         Final Report IPE-9460
Office of Inspector General                                                                September 2000



        l       Over-relied on support contractors for CyberFile development without
                maintaining adequate control over their activities.
        l       Failed to pass along critical IRS contract specifications to its contractor and
                subcontractors, resulting in a system that did not meet IRS security and delivery
                requirements.
        l       Issued work authorizations in advance of contract agreements defining
                requirements, which resulted in the initial estimated $1.4 million software
                development cost rising to over $7.8 million.
        l       Used the prime development and systems integration 8(a) contract to funnel much
                of the CyberFile development work to subcontractors that were ineligible under
                the 8(a) program.
        l       Used a complex web of interagency agreements to avoid federal competition
                requirements and departmental oversight, thereby increasing government costs by
                about $875,000.
        l       Violated federal regulations on delivery order contracts and interagency
                agreements by failing to conduct market surveys or price analyses, and improperly
                entered into and poorly managed interagency agreements.

In a 1999 report, we discussed an agreement between NWS and the Mexican Comision Nacional
del Agua.22 It had insufficient justification for other than full and open competition for the award
of four sole-source procurement contracts to provide technical assistance and management
services under the agreement. Specifically, individual sole source justifications for each of these
contracts were not prepared, the proposals were not announced in the Commerce Business Daily,
and not all of the awards were competitively bid.

The contracting officer in charge of these four NWS contracts stated that the Federal Acquisition
Regulation (FAR) was not relevant because the funding is not appropriated; rather, it is
reimbursed by the Mexican Commission. However, the FAR clearly requires the preparation of a
special justification and advertising in the Commerce Business Daily for all sole source contracts
over $25,000. Regardless of the funding source, we believe that Commerce should adhere to the
FAR requirements for contracts entered into under reimbursable agreements, including preparing
sole source justifications and advertising all sole-source contracts in the Commerce Business
Daily. To do otherwise would promote a dual procurement process that may lead to waste.




        22
           NWS Requires Better Management and Oversight of Interagency and Other Special Agreements,
IPE-10417 , March 1999.

                                                   17
U.S. Department of Commerce                                                   Final Report IPE-9460
Office of Inspector General                                                          September 2000



The fact that reimbursable funding is involved does not change the need to follow federal and
departmental procurement policies. The government has a strong interest in maintaining
procurement practices that are fair to the private sector and provide quality and low cost goods
and services to the government. Therefore, we recommend that the Department and its bureaus
clarify when FAR requirements for procurement actions apply to reimbursable funding.

In addition, to help program officials determine when a procurement contract is the most
appropriate instrument(s) for an anticipated funds transfer to a private entity, we recommend that
the Department (1) encourage program officials to seek guidance from the Office of the General
Counsel (OGC) and provide contact information for the various OGC divisions with expertise in
these areas and (2) explain the differences and benefits of the various types of agreements during
departmental training sessions on procurement contracts, financial assistance, or other
agreements.



In responding to our draft report, the Assistant General Counsel for Administration stated that
the General Law Division has developed training classes and written materials that can be
provided to all interested offices in the Department to help with determining the most
appropriate instrument(s) for an anticipated funds transfer to a private entity. These training
materials also served as the basis for the initial draft of the Department’s Agreement Handbook,
which is discussed on page 39. Our recommendation that the Department and its bureaus clarify
when FAR requirements for procurement actions apply to reimbursable funding was not
specifically addressed in the Assistant General Counsel’s or the Acting Director, Office of
Executive Assistance Management’s written responses, but both stated that they were in
agreement with our findings and recommendations.




                                               18
U.S. Department of Commerce                                                     Final Report IPE-9460
Office of Inspector General                                                            September 2000



IV.    Some Agreements Have Been Used When Financial Assistance Awards Would Have
       Been More Appropriate In Accordance With Federal Guidelines

During our reviews of Commerce bureaus, we found at least one area where agreements were
unwisely used instead of financial assistance awards. Specifically, in fiscal year 1997, MBDA
used joint project agreements to provide approximately $2.29 million to 11 minority business
opportunity committees (MBOCs). After our inquiry, MBDA decided to continue support for
the program, but agreed to transfer the funds using cooperative agreements.23

There are some cases when the purpose of an existing agreement better fits the definition of a
cooperative agreement or a grant, or when a project is better served by conversion to a
cooperative agreement or grant. In each of these cases, changing the legal instrument to a
financial assistance award improves the funding process and strengthens the oversight and
monitoring of the program, thereby increasing its credibility. If agreements, most notably joint
project agreements, are used in place of grants and cooperative agreements, there is not a
thorough and verifiable award process because they are not examined by the Department’s, or
any other, financial assistance office. In addition, agreements are generally not competitively
awarded, as is Department policy for grants and cooperative agreements. While it is not always
clear why authorizing officials would use an agreement in place of the preferred grant or
cooperative agreement, we believe they may do so because either they have not been made aware
of the required and/or preferred mechanism or because an agreement requires less time and/or is
not scrutinized as thoroughly as a financial assistance award.

When is a cooperative agreement appropriate?

In the case of the MBOC program, an agreement may have been legal, but not the most
appropriate or effective funding mechanism. Commerce’s joint project authority permits its
bureaus to engage in joint projects of mutual interest with a variety of organizations. Joint
projects are most appropriate when the federal participant and partner organization each
contribute expertise to jointly produce a product or service. But, under certain
circumstances—such as with the MBOCs—cooperative agreements would have been more
appropriate. Under the Federal Grant and Cooperative Agreement Act, an executive agency must
use a cooperative agreement when the principal purpose of the relationship is for the federal
government to provide assistance in order to carry out a public purpose of support or stimulation
authorized by law. Substantial involvement is also expected between the federal agency and the


       23
          Cooperative Agreements Will Improve Management and Oversight of MBOC Program, IPE-10309,
March 1998.

                                                 19
U.S. Department of Commerce                                                     Final Report IPE-9460
Office of Inspector General                                                            September 2000



recipient in carrying out the activity contemplated in the agreement. We found that the MBOC
program clearly fits within these requirements.

The primary goals of an MBOC are to increase opportunities for minority entrepreneurs and to
facilitate the capacity of institutions to promote continuing minority business success. MBOCs
are intended to function as outreach organizations, mobilizing resources and acting as a
clearinghouse for market opportunities and other valuable business information in local
communities. MBOCs also serve as advocates for the full inclusion of the minority-owned
businesses in the economic life of the community, including the expansion of public and private
sector purchasing from minority firms. In furtherance of these goals, MBDA procedures call for
strong interaction between agency officials and awardees, including: (1) holding extensive
discussions with potential applicants, (2) conducting visits and quarterly reviews to evaluate
awardee performance, and (3) holding decision-making authority over MBOC personnel
selections. Given this close interaction, we believe, and MBDA agrees, that these programs
should be funded by cooperative agreements.

When is a grant more appropriate?

Grants, on the other hand, are more appropriate when substantial involvement by the Commerce
bureau is not expected. Specifically, the Federal Grant and Cooperative Agreement Act states
that grants are legal instruments used when “(1) the principal purpose of the relationship is to
transfer a thing of value to the State or local government or other recipient to carry out a public
purpose of support or stimulation authorized by a law of the United States . . . and (2) substantial
involvement is not expected between the executive agency and the State, local government, or
other recipient when carrying out the activity contemplated in the agreement.”24

Financial assistance processes provide additional oversight and review

We should note that there are at least two benefits to using the financial assistance process to
fund Commerce programs. First, the review process for grants and cooperative agreements is
more rigorous than that for agreements which can help to make programs more effective and fair.
When grants or cooperative agreements are used, grants specialists examine the proposed
agreements for adequacy of terms and conditions, ensure that the awardees understand vital
terms and conditions, and validate the award procedures. In addition, OGC reviews the proposed
notice of intent to make awards published in the Federal Register. The OGC review ensures that
the notice is fair and proper, and contains such information as evaluation criteria (basic qualifying

       24
            31 U.S.C. § 6304.

                                                 20
U.S. Department of Commerce                                                              Final Report IPE-9460
Office of Inspector General                                                                     September 2000



factors) and selection factors (used to distinguish among qualified applicants). OGC also
examines the financial assistance application information before it is sent to prospective
applicants. Finally, OGC will examine award packages before they are finalized.25

In addition, the OIG reviews several aspects of financial assistance awards. First, it performs
name and credit checks of prospective awardees, as appropriate. In addition, the OIG team
reviewing the award checks completed audit and inspection reports and investigative files for
negative findings on the proposed recipient and discusses ongoing audit and/or inspection work
related to proposed recipients with the OIG staff performing the work to ascertain potential
problems that need consideration before an award is approved.

Second, by using the financial assistance process to fund Department programs, the award
process becomes open to competition. Having competition in issuing a grant or cooperative
agreement should greatly benefit the Department and the sponsoring bureaus by providing for a
larger group of award candidates from which to choose. Department Administrative Order 203-
26 states that “discretionary grant [and cooperative agreements] program awards shall be made
on the basis of competitive review.” Such reviews include minimum requirements which must
be complied with unless a special waiver is obtained. The minimum requirements for competitive
review include:

(a)     An application is reviewed only when it has been submitted in response to an application
        notice published in the Federal Register or any additional publication used by the
        organization unit.
(b)     Applications are treated fairly under the review process.
(c)     Each application receives an independent, objective review by one or more review panels
        qualified to evaluate the applications submitted under the program.
(d)     Each review panel uses the selection criteria that apply to the program covered by the
        application notice.
(e)     After the review panel has evaluated the applications, the organization unit prepares a
        rank ordering of the applications based solely on the evaluations by the review panel.
(f)     The organization unit determines the order in which applications will be selected for
        funding based on the following factors:
        (1)     Any priorities or other program requirements that have been published in the
                Federal Register and apply to the selection of applicants for new awards; and
        (2)     The rank order of the applications established by the review panel on the basis of
                the selection criteria.


        25
           As with other departmental grants, OGC will examine award packages for all awards except competitive
awards of less than $100,000.

                                                       21
U.S. Department of Commerce                                                                   Final Report IPE-9460
Office of Inspector General                                                                          September 2000



(g)      The grants officer may choose not to fund a highly ranked application based on certain
         high risk factors.26

Combined with the additional oversight by OGC and the OIG, these elements of competitive
review should make programs, such as the MBOC program, more effective and fair. The
Department should carefully consider these benefits when it or one of its bureaus is considering
funding a project through an agreement. If the statutory criteria for grants or cooperative
agreements apply, then one of these financial assistance instruments should be used instead of
other types of agreements. As noted in the previous chapter on procurement contracts,
departmental guidance that helps to identify which instrument is appropriate should be developed
to assist the bureaus in making this determination. Specifically, we recommend that the
Department (1) encourage program officials to seek guidance from OGC and provide contact
information for the various OGC divisions with expertise in these areas and (2) explain the
differences and benefits of the various types of agreements during departmental training sessions
on procurement contracts, financial assistance, or other agreements




In her response to our draft report, the Assistant General Counsel for Administration expressed
concern that our report implied that joint project agreements lack controls and, therefore, should
be avoided. This was not our intention. However, while OGC maintains that joint project
agreements receive a rigorous legal review, we found a number of cases where previous legal
reviews were not adequate (see page 33 of this report.) We understand that, in an effort to adopt
the recommendations made in our earlier reports, the individual bureaus and line offices have
instituted improved programmatic and budgetary review procedures, thus improving the quality
of joint project agreements sent to OGC for legal review. We applaud these improvements and
urge the bureaus and OGC to continue their efforts to ensure that agreements are not used when
a financial assistance award would have been more appropriate in accordance with federal
guidelines.

With regard to the need to provide guidance to the bureaus on when financial assistance
instruments should be used instead of agreements, OGC’s General Law Division has developed
training classes and written materials that can be provided to all interested offices in the
Department. These training materials also served as the basis for the initial draft of the
Department’s Agreement Handbook, which is discussed on page 39.


         26
          It is important to note that unsolicited proposals that fall outside the program goals of a competitive
program may be funded on a noncompetitive basis with the proper justification.

                                                         22
U.S. Department of Commerce                                                  Final Report IPE-9460
Office of Inspector General                                                         September 2000



V.     The Department Is Improving the Process for Preparing and Monitoring
       Agreements

In our September 1998 report to the Chief Financial Officer and Assistant Secretary for
Administration and the General Counsel, 27 we identified many reasons why the Department
needs to take a stronger role in overseeing how the bureaus draft, implement, and administer
agreements. Some of our concerns included the failure to comply with federal requirements and
to receive necessary programmatic, administrative, and legal review of agreements. The
Department has since committed to implementing Department-wide guidance for agreements.
For the benefit of the Commerce bureaus and line offices for which we did not issue a report, a
discussion of the most common deficiencies follows. This will hopefully serve as a useful tool
for enabling them to avoid the problems of others when using agreements.

A.     Commerce agreements do not consistently comply with federal requirements

We found that departmental policies for preparing agreements are incomplete. Specifically, the
Department lacks centralized guidance on when and how bureaus should enter into agreements
and what approval or review processes apply. The Department of Commerce Accounting
Principles and Standards Handbook provides some minimal guidelines on performing
reimbursable services and entering into joint projects. OS’s Office of Management and
Organization is responsible for maintaining departmental directives. However, officials in this
office stated that departmental guidelines for agreements have never been a priority.

Because of this lack of adequate guidance, m any agreements are improperly or haphazardly
assembled. Often, they (1) cite the wrong legal authority or fail to cite any legal authority, (2)
are not adequately justified, (3) lack the signatures of the proper officials, (4) have incomplete
budget information, and/or (5) have unclear or undefined termination dates or review periods. As
discussed below, these deficiencies have serious consequences.

Some agreements fail to cite applicable legal authorities

We found that several Commerce bureaus fail to consistently cite the applicable legal authority
that is used as the basis for their agreements. Legal authorities typically cited in agreements
include: Economy Act of 1932 (31 U.S.C. §§ 1535-1536), Commerce’s joint project authority (15
U.S.C. §§ 1525-1526), and Intergovernmental Cooperation Act (31 U.S.C. § 6505). Program
authority may also exist as a result of congressional action. For example, specific authority for


       27
            IPE-10418.

                                                 23
U.S. Department of Commerce                                                                      Final Report IPE-9460
Office of Inspector General                                                                             September 2000



another federal agency to transfer funds to a Commerce agency may be contained in
programmatic statutes (e.g., the Clean Water Act, 42 U.S.C. § 7403(b)(4), or the National Sea
Grant College Program Act, 33 U.S.C. § 1123(d)(6)).

Citation of proper legal authority is important because the type of authority chosen for a
particular agreement affects the treatment of funds transferred under the agreement, including the
timing or disposition of receipts. For example, the Economy Act requires that all payments for
work or services performed be deposited to the appropriation or fund against which the charges
have been made. Under the joint project authority, all payments are deposited into a separate
account that may be used to directly pay the costs of work or services performed, to repay
advances, or to refund excess sums when necessary. All receipts for furnishing specialized or
technical services authorized under the Intergovernmental Cooperation Act may be deposited in
the appropriation or funds from which the cost of providing such services has been paid or is to
be charged. In contrast, amounts collected as user fees must be returned to the U.S. Treasury in
full unless existing statutes specifically provide otherwise. Without an accurate citation,
Commerce bureaus cannot be certain that they are properly depositing and handling funds
associated with agreements.

The type of legal authority used also affects the period of availability for funds transferred under
an agreement. For Economy Act agreements, the period of availability of funds transferred may
not exceed the period of availability of the source appropriation. Accordingly, one-year funds
transferred by the requesting agency must be returned at the end of that fiscal year and
deobligated by that agency, to the extent that the performing agency has not performed or
incurred valid obligations under the agreement. When the agreement is based on some statutory
authority other than the Economy Act, the funds will remain payable in full from the
appropriation initially charged, regardless of when performance occurs. The funds are treated the
same as contractual obligations, subject, of course, to the “bona fide needs rule”28 and to any
restrictions in the legislation authorizing the agreement. Therefore, it is necessary to determine
the correct statutory authority for any agreement, in order to apply the proper obligational
principles.




         28
            The bona fide needs rule states that a fiscal year appropriation may be obligated only to meet a legitimate,
or bona fide, need arising in, or in some cases arising prior to but continuing to exist in, the fiscal year for which the
appropriation is made.

                                                           24
U.S. Department of Commerce                                                             Final Report IPE-9460
Office of Inspector General                                                                    September 2000



To illustrate, in two separate reports,29 we found that NOAA’s Office of Oceanic and
Atmospheric Research (OAR) does not consistently cite the applicable legal authority in its
agreements and has not demonstrated an acceptable level of improvement in authority citation
since the problem was identified in the earlier 1996 report. That report indicated that 45.4 percent
of agreements sampled did not cite a legal authority. The sample used in our 1998 report
indicated that 39.4 percent did not cite a legal authority, a minimal improvement. Our other
recent reports on how Census and NWS manage their agreements cited similar deficiencies.30

The current practice of not directly citing a legal authority in agreements is inappropriate.
However, we recognize that there are instances where citing a legal authority may not be
appropriate, such as in international agreements where diplomatic reasons may dictate not
including a citation to a legal authority. We have recommended that any departmental guidance
address what legal authorities Commerce bureaus may rely on for their agreements. In addition,
the guidance should clarify when a legal authority must be cited in the agreement itself. If it is
not appropriate for the legal authority to be cited in the agreement, the guidance should require
that the official agreement file contain the citation of the appropriate legal authority.

Agreements are not always adequately justified

In order to construct a valid agreement, requirements defined in each applicable statutory
authority must be met. On the following page, Table 2 lists some relevant legal citations and
includes factors that must be considered when creating agreements.




         29
           OAR’s Cost Recovery for Sponsored Research Needs Improvement, STL-7658, June 1996; OAR’s
Interagency and Other Special Agreements, IPE-10310.

         30
              Bureau of the Census Interagency Agreements Require Improvements, IPE-10523, March 1999; IPE-
10417.

                                                       25
U.S. Department of Commerce                                                         Final Report IPE-9460
Office of Inspector General                                                                September 2000



Table 2: Summary of Relevant Legal Authorities
        Legal Authority                                  Applicable Criteria
 Economy Act of 1932             a.     Funds are available.
 (31 U.S.C. § 1535)
                                 b.     The head of the ordering agency decides the order is in the
                                        best interest of the government.
                                 c.     The agency filling the order is able to provide the goods or
                                        services.

                                 d.     The head of the ordering agency decides whether or not the
                                        ordered goods can be provided as conveniently or cheaply
                                        by a commercial enterprise.
 Joint project authority         a.     The total costs (sum of costs for all participants in the joint
 (15 U.S.C. § 1525)                     project) for such projects must be apportioned equitably.

                                 b.     Joint projects may be performed only if the project (1)
                                        cannot be done at all or as effectively without the
                                        participation of all parties to the project , (2) is essential to
                                        the furtherance of a departmental program, (3) is
                                        undertaken with an eligible partner (nonprofit
                                        organizations, research organizations, or public
                                        organizations or agencies), and (4) is of mutual interest to
                                        both parties.
 Intergovernmental Cooperation   a.     Agencies may provide specialized or technical services for
 Act                                    state or local governments that the agency is especially
 (31 U.S.C. § 6505)                     competent and authorized by law to provide.
                                 b.     The services must be consistent with and further the
                                        government’s policy of relying on the private enterprise
                                        system to provide services reasonably and quickly available
                                        through ordinary business channels.

                                 c.     Services may be provided only when there is a written
                                        request for those services made by the state or local
                                        government. The requestor must also pay all identifiable
                                        costs incurred by the agency in rendering the service.

Written justifications addressing these factors, although logical, are not always required. The
FAR prescribes the policies and procedures applicable to interagency acquisitions only under the
Economy Act. When a government agency purchases a good or service from another
government agency, the requesting agency must prepare a determination and finding (D&F).


                                                26
U.S. Department of Commerce                                                                Final Report IPE-9460
Office of Inspector General                                                                       September 2000



D&Fs document that “(1) use of an interagency acquisition is in the best interest of the
Government; and (2) the supplies and services cannot be obtained as conveniently or
economically by contracting directly with a private source.”31 Additional matters must be
addressed in the D&F if the Economy Act agreement requires contracting by the servicing
agency.32 According to the FAR, a D&F “shall be approved by a contracting officer of the
requesting agency with authority to contract for the supplies or services to be ordered, or by
another official designated by the agency head.”33 Specifically, a contracting officer ensures that
authorities and funding are adequate.

The FAR requirement for a D&F for Economy Act transfers appears to be the only regulation
that explicitly requires a written justification addressing relevant legal criteria.34 Yet, for all types
of agreements regardless of the legal authority cited, written justifications, which demonstrate
that the legal criteria have been met, represent a good management practice. Several of the
criteria listed in Table 2 are complex, such as the joint project authority requirement that the
project cannot be done at all or as effectively without the participation of all parties. Without the
aid of a written justification, it may be difficult to show that the criteria for some agreements have
been met. In addition, managers or other officials who review agreements that they did not
negotiate need sufficient written documentation to determine that all relevant criteria have been
met.

We found that most often only limited supporting documentation was included with agreements
to indicate that Commerce officials considered the factors required to support the agreements’
legal citations. In particular, for those agreements where Commerce pays for services from other
federal agencies under the Economy Act, the bureaus do not consistently prepare D&Fs in
compliance with the FAR. NOAA’s National Sea Grant College program, for example, simply
agrees to fund another agency’s project, prepares a procurement request, and submits that
paperwork to NOAA’s Office of Finance and Administration for processing. We also found that
for intra-agency transfers Commerce agencies often do not document their determination that the
government can provide the needed goods or services more cheaply or conveniently than a
commercial enterprise.


        31
             FAR § 17.503(a).

        32
             FAR § 17.503(b).
        33
             FAR § 17.503(c).
        34
            In addition to a D&F, the FAR requires that Economy Act agreements include specific provisions, such as
a description of the supplies or services required, delivery requirements, a funds citation, payment terms, and
acquisition authority, as may be appropriate (FAR § 17.504(b)).

                                                        27
U.S. Department of Commerce                                                  Final Report IPE-9460
Office of Inspector General                                                         September 2000




While the applicable statutory authorities do not necessarily require written justifications
addressing the applicable criteria, nonsystematic review of complex issues and determinations,
many of which are not documented, often results in insufficient consideration being given to
many of the criteria that must be met for these authorities to be used. We have recommended
that the Department review existing laws, including those listed in Table 2, and determine what
requirements should be supported by written justifications. Then, the Department should
provide adequate guidance and oversight to the bureaus to ensure that agreements include
appropriate written documentation to prove that the relevant criteria have been met.

Many agreements are not signed by the appropriate official

During our review of agreements throughout the Department, we found that many agreements
were not approved and signed by an appropriate official. Some, but not all, bureaus have express
delegations of signature authority for agreements. There are varying criteria for who can approve
and sign various types of agreements. Often, a dollar threshold or programmatic priorities
determine who should sign an agreement, but there is no consistent policy.

For example, of the 62 NWS agreements we reviewed, 9 agreements were signed by individuals
who did not have approval authority and 3 agreements had not been signed by either party to the
agreement.35 We also found that 12 of the 99 OAR agreements we reviewed were not approved
and signed by an appropriate official. 36 However, both NWS and OAR were proceeding with
activities as if the agreements were in force. The NOAA Budget Handbook provides criteria,
based on funding and work-years, for who must sign or approve reimbursable agreements. In the
case of OAR, NOAA’s Chief Financial Officer and Chief Administrative Officer officially
delegated additional signature authority to the Director of the Environmental Research
Laboratories. The memorandum provided that this delegation formalized OAR’s established
practices and emphasized that all future delegations must be approved in writing.

The Department should ensure that each agreement receives the appropriate level of approval and
is signed by an authorized official. For each type of agreement (reimbursable, obligation, or
unfunded), criteria should be established for Department-level approval and delegations to the
bureaus. All relevant information for each agreement should also be provided to the designated
official, including justifications and budget documentation. These officials could then be held




       35
            IPE-10417 .
       36
            IPE-10310.

                                               28
U.S. Department of Commerce                                                      Final Report IPE-9460
Office of Inspector General                                                             September 2000



accountable for ensuring that all agreements are consistent with Commerce’s mission and involve
an appropriate use of resources.

Agreements often have incomplete budget information

Commerce agreements do not always include total project costs combined with acceptable
budget summaries. Agreements that require full cost recovery, such as those which result in user
fees, should include total project costs to ensure all costs will be recovered, as required by federal
laws, OMB Circular A-25, the Department of Commerce Accounting Principles and Standards
Handbook, and bureau-level guidance.

In practice, we found that some Commerce offices, such as OAR and NMFS, often rely on
research proposals to define and justify reimbursable projects. In addition to a statement of
work, proposals include total project costs and budget summaries. However, these proposals
often are not forwarded with the formal agreement for review by the officials responsible for
signing the agreement. In addition, the proposals are not always referenced in the agreements.
Incorporating the proposals by reference and attaching the proposal to the agreement or including
proposal cost information in the actual agreement would greatly improve the quality of
Commerce agreements.

When agreements do not identify total project costs, managers and reviewers cannot accurately
determine whether full costs are being recovered. Also, if total project costs are not identified, an
agreement may not receive approval at an appropriate level within the organization. Accurate,
detailed budget summaries also assist managers and reviewers in assessing the commitment of
staff time or other resources to particular agreements. Therefore, total project costs and budget
summaries, including Commerce’s contributing share, should be defined in the agreement. If
that information is provided in a proposal exclusively, the proposal be expressly incorporated by
reference in the agreement.

Termination dates or review periods are not always defined

Some Commerce agreements we reviewed did not define a termination date or review period.
While there is no departmental guidance on termination dates and review periods, some bureaus
have internal policies. For example, the NOAA Budget Handbook requires that reimbursable
agreements include terms stating (1) when and under what circumstances the agreement is to be
terminated and (2) that the agreement must be reviewed periodically, but not less than annually.
In addition, NWS issued a policy in June 1994 requiring that each of its agreements be reviewed
every three years.



                                                 29
U.S. Department of Commerce                                                    Final Report IPE-9460
Office of Inspector General                                                           September 2000



During our recent reviews, we found that of the 62 NWS agreements we reviewed, 39 did not
specify the performance term and 26 failed to cite an effective date.37 Some agreements also did
not state a termination date. In addition, 7 of 99 OAR agreements and 14 of 26 Census
agreements did not sufficiently define a termination date or review period.38

In reviewing ITA’s agreements, we found an example of an agreement that no longer seems
appropriate considering ITA’s organizational changes over the last couple of years. The
US&FCS district office in Nashville, Tennessee, established a branch office in Knoxville,
Tennessee, effective March 1990, before the present network of USEACs was established. With
the new USEAC structure, Knoxville is now a “spoke” office reporting to the Atlanta USEAC
“hub” site, not Nashville. Also, we found many agreements that had expired, some as recently as
June 1998, and others as early as March 1995, without a new agreement put in place, even though
the interagency relationship continued to exist.39

Defining these relevant dates or time periods is important to ensure that agreements are properly
administered and kept up-to-date. When the stated performance period is undefined or
indefinite, it is difficult to determine whether the agreement is still valid and whether
reassessment of the agreement ever occurred. In addition, even if a need still exists, as time
passes, critical features of the project, such as the level of funding or other resources, may need
modification. An ill-defined performance period may ultimately result in the performance of
work that is no longer mission-related, the waste of funds and personnel, or the inequitable
apportioning of project costs.

In most cases, agreements should have a defined performance period with a stated effective date
and, when possible, a specific termination date. However, we recognize that there may be
instances where flexibility in this requirement is necessary to best meet the needs of the
Department. In these instances, the lack of a termination date in the agreement must be
thoroughly justified by the responsible program office and documented in the official agreement
file. In addition, for agreements that continue over an extended term where it is not feasible to
define a termination date, the agreement should have a provision for a periodic review and
amendment by mutual consent of the parties.

Agreement negotiation process should be improved



       37
            IPE-10417 .
       38
            IPE-10523.
       39
            IPE-10752.

                                                 30
U.S. Department of Commerce                                                   Final Report IPE-9460
Office of Inspector General                                                          September 2000




As part of any new policies and procedures for agreements, the Department should include a
more formal method of ensuring that agreements prepared by other parties are complete before
they are signed by Commerce officials. During our review of other Commerce bureaus, we
found that agreements are often deficient due in part to the fact that other parties prepared the
agreements and the Commerce bureau failed to negotiate with the other party to make necessary
changes before the agreements were signed. This is most often the case when the Commerce
bureau performs reimbursable work for others, rather than purchasing services.

In one case we found that OAR officials were making some effort to identify missing terms and
notify the other parties of what those terms should be.40 OAR prepared a cover letter that was
sent to the other party with the signed agreement. The letter, signed by the OAR official who
signed the agreement, acknowledged receipt and acceptance of the attached agreement and
included several standard items, such as the amount of the agreement, legal citation, termination
date, and billing terms, whether or not those terms were stated in the agreement. However, this
practice did not represent a formal agreement between the parties, because the additional terms in
the letter were not formally agreed to by the other party.

We suggest that the Department work with the bureaus to establish a formal procedure for
ensuring that agreements prepared by other parties contain all necessary information. Standard
language should be developed and sent to the sponsoring party when negotiations on a project
first begin. The standard language would inform the other party of basic elements that must be
included in any formal agreement, including legal citation, termination date or performance
period, and total project costs. This notice could be incorporated into any initial correspondence
or be presented as a brief standard form. Forms of this nature, such as those used by the Census
Bureau or the Environmental Protection Agency, would be useful resources for developing a
standard form.

As a second step, if a final agreement is still incomplete, Commerce bureaus should prepare a
formal modification or amendment that specifies missing terms and is signed by both parties.
The bureaus could use the same standard form used during negotiations. To ensure full
compliance, the programs should not be permitted to begin work on a project until the agreement
and any modifications or amendments needed to include missing terms are signed. Given
common and persistent deficiencies found throughout the Department, a procedure that formally
notifies other agencies and/or parties of necessary terms and subsequently modifies or amends




       40
            IPE-10310.

                                                31
U.S. Department of Commerce                                                   Final Report IPE-9460
Office of Inspector General                                                          September 2000



incomplete agreements is essential to ensure future compliance and to protect Commerce from
any risks associated with these deficiencies.



The Assistant General Counsel for Administration’s written response to our draft report
provided comments regarding the citation of legal authority in agreements and whether
termination dates need to be cited in all agreements. Where appropriate, we made changes to
our report to address the comments. In addition, the Assistant General Counsel stated that her
office has developed written materials and conducted training sessions on agreement
preparation. We are pleased to hear of these efforts and urge OGC to continue working with the
bureaus to improve the preparation and review of agreements.

B.     The oversight process for reviewing departmental agreements is inadequate

There is an opportunity for the Office of the Secretary to create a process that could greatly
improve the review of agreements throughout Commerce. Because the Office of the Secretary is
in the unique position of overseeing many administrative details for its bureaus and offices, it
naturally follows that it is in a position to ensure that agreements contain all required elements
before they are finalized. There are four specific areas of review that the Department should
consider: budget, procurement, legal, and programmatic.

Agreements do not always receive adequate budget review

Agreements involve a significant amount of resources—either the transfer of funds or the
commitment of funds or resources to a project. Because of this fact, each Commerce agreement
should receive a thorough budget review to ensure that federal resources are wisely and
justifiably used. We have recommended that in any departmental guidance on agreements, the
Department should state what budget documentation and detail are necessary for the bureau
budget offices to approve the obligation of resources to a performing agency or entity, or to
receive reimbursable or advance funding from a sponsoring agency or entity. Individual bureaus
would then be responsible for reviewing their own agreements for compliance with departmental
and bureau-level guidance.

Several bureaus have an informal review process for agreements. For example, ITA follows the
general practice of having its Office of Administration and budget offices process all agreements
involving the transfer of funds. Agreements not involving money are handled by the Assistant




                                                32
U.S. Department of Commerce                                                      Final Report IPE-9460
Office of Inspector General                                                             September 2000



Secretaries of the program units. There is no documentation of these processes, however, and
therefore no assurance that all agreements receive appropriate review.41

Contracting officers do not regularly review and approve agreements

With regard to procurement review, the FAR provides that D&Fs, which support agreements that
transfer funds under the Economy Act, should “be approved by a contracting officer of the
requesting agency with authority to contract for the supplies or services to be ordered, or by
another official designated by the agency head.”42 However, throughout Commerce, we found
that contracting officers or designated officials are not always reviewing D&Fs. In fact, Census
unjustifiably removed this requirement from its agreement review process.43

Officials in the Office of the Secretary’s Office of Acquisition Management were aware of the
FAR requirements, but acknowledged that they did not review most Economy Act agreements
and supporting D&Fs. We believe that Office of Acquisition Management contracting officers
should approve all Economy Act fund transfers and D&Fs, or delegate this responsibility, for
agreements below a certain threshold, to the contracting officers in the appropriate bureau. This
review is critical to meet the FAR requirements and also to ensure that the authority provided by
the Economy Act is not being used to inappropriately acquire goods and services from other
federal agencies.

Agreements do not always receive legal review

We found that many Commerce agreements did not receive any legal review before becoming
effective. If an agreement has not been reviewed by legal counsel, it may (1) not comply with
legislative and regulatory requirements, (2) not cite appropriate legislative authority, or (3) include
terms unacceptable to or unnecessary for a federal agency. Currently, the Department does not
have any orders or regulations that establish criteria for when legal review is required before an
agreement is signed. An April 1994 OGC memorandum states that Economy Act and joint
project agreements “should” be sent to OGC for review, implying some level of discretion.
However, OGC officials told us that all agreements must be sent to them for review unless a
specific delegation has been granted. In addition, most of the bureaus do not have clear policies
on when bureau counsel and/or OGC review is required for agreements.


       41
            IPE-10752.

       42
            FAR § 17.503(c).

       43
            IPE-10523.

                                                  33
U.S. Department of Commerce                                                                 Final Report IPE-9460
Office of Inspector General                                                                        September 2000



Due in part to the lack of guidance on legal review of agreements, the bureaus follow various
practices for having their agreements reviewed. Several bureaus or organizational units,
particularly ITA and NOAA headquarters, have policies of sending all of their agreements to legal
counsel for review. However, their agreements processes are largely informal and undocumented
so there is no assurance that all agreements receive legal review.

In fact, of the agreements we reviewed during our bureau and line office inspections, a relatively
small number actually received a legal review. OGC did not review NTIS’s delivery orders and
interagency agreements implemented as part of its CyberFile project, which involved numerous
procurement deficiencies.44 OGC reviewed only 10 OAR agreements in fiscal year 1997; while 12
of the 62 NWS agreements from fiscal year 1997 we sampled were reviewed by OGC.45 Most
NIST agreements also do not receive OGC review, while some are reviewed by NIST’s Deputy
Chief Counsel for Technology Administration. Many agreements themselves evidence a lack of
legal review because of the failure to include basic provisions, such as a citation to legal authority.

A clear policy is needed that details when agreements should be submitted for legal review.
Because it is simply not practical or necessary for all agreements to be reviewed by OGC, we
recognize that there should be some programmatic criteria and dollar thresholds developed to
assist bureaus and offices in determining which agreements must be reviewed by OGC and
which should have bureau-level legal review. For example, the Department could require OGC
review of agreements that are over a certain dollar threshold, commit significant funding or other
resources, include irregular terms and conditions, involve a private or foreign party, are signed at
the line office level or higher, or potentially involve significant departmental liability. OGC also
recognizes the need for criteria and, over the past three years, has been working with
departmental bureaus and offices to develop thresholds for legal review of agreements. Once the
thresholds are set, they are to be incorporated into the forthcoming individual bureau’s and
office’s guidance on agreements.

In addition to a clear policy, pre-approved language that is regularly reviewed and updated would
facilitate the process by making agreements easier to draft and review. To meet this need, OGC
recently developed several model agreements for use by Commerce bureaus. The models cover
Economy Act, Joint Project, Intergovernmental Cooperation, and Special Studies agreements and




        44
            CyberFile was an on-line tax-filing system that NTIS was developing for the Internal Revenue Service
through an interagency agreement (see Deficiencies Related to the CyberFile Project, IPE-9364).

        45
             IPE-10310; IPE-10417.

                                                        34
U.S. Department of Commerce                                                   Final Report IPE-9460
Office of Inspector General                                                          September 2000



OGC has made them available on its web site.46 In addition to the OGC model agreements, NIST
uses several standard forms for its interactions with nonfederal researchers, including a guest
researcher agreement and a facilities use agreement. Finally, the NOAA Budget Handbook also
includes some standard language for agreements.

Programmatic review should be formalized

The Department should also incorporate a programmatic review requirement into its review
process for agreements. We found that agreements receive various levels of programmatic
review, but often these review processes are undocumented. As discussed on page 25, some
legal authorities that authorize agreements include complex criteria that must be met. In addition
to determining what written justifications should be prepared for these criteria, the Department
should require the bureaus to determine the appropriate level of review. Designated offices or
officials could then be held accountable for the appropriateness of agreements.

In one example we reported on at NWS,47 a 25-year-old agreement between the Coast Guard and
NWS’s National Data Buoy Center specified that a minimum of 15 Coast Guard personnel were
to be detailed to NWS. The agencies had not reviewed this agreement to determine whether the
number of personnel were still necessary, possibly causing the Center to waste some of the $1.2
million that it spent on this arrangement every year. This lack of oversight was due in part to
NWS’s inconsistent policies on reviewing agreements. In September 1997, NWS issued a
directive requiring that all interagency agreements be reviewed at least once every three years.
The NOAA Budget Handbook, however, required that agreements include terms stating that the
agreement must be reviewed periodically, but not less than annually.

We found one agreement between NMFS and the Pacific Marine States Fisheries Council had
specific details that were no longer relevant or accurate.48 For example, the type of computer
being used and the number of Council personnel working on-site at NMFS facilities had all
changed. In addition, another six agreements were no longer active, but there is no
documentation that these agreements were ever closed out or officially terminated.

In another example, NASA transferred $6.3 million to OAR to perform one task under a 1973
memorandum of understanding between NASA and NOAA, which governs joint satellite


       46
            See http://www.ogc.doc.gov/ogc/admin/general.html
       47
            IPE-10417.

       48
            NMFS’s Agreements Require Additional Improvements, IPE-10775.

                                                      35
U.S. Department of Commerce                                                        Final Report IPE-9460
Office of Inspector General                                                               September 2000



programs worth approximately $172 million a year.49 While the 1973 agreement stated that it
remained in effect indefinitely and could be terminated or modified at any time, it had not been
formally updated since it was first drafted 25 years ago. NASA and NOAA both agreed that the
agreement needed updating and a new agreement was signed in June 1998, shortly after our
report was issued.

We found three Sea Grant agreements that were signed in 1977, 1984, and 1987, respectively.50
The agreements included provisions which required that they (1) be reviewed periodically, but
not less than annually, and (2) remain in effect until terminated by mutual agreement or upon
adequate notice of either party. However, we found that Sea Grant did not regularly review
these agreements. Although the agreements still relate to valid programmatic needs, they may
require amendment. In particular, the Fish and Wildlife Service initiated a review of and
recommended changes to its 1977 agreement with Sea Grant, but no action had been taken by
Sea Grant in response. The 1984 U.S. Department of Agriculture agreement coordinates its
Extension Service activities with the local Sea Grant programs and the 1987 NWS agreement
authorizes Sea Grant programs to organize weather reports from mariners. Even though there
may still be some value to these programs, they should be periodically reviewed to determine if
changes in circumstances require the agreements to be updated.

The Department should require the bureaus to periodically reevaluate the necessity and
appropriateness of individual agreements. As discussed on page 29, many of the agreements we
reviewed contained indefinite duration provisions, often stating that the agreement is valid until
terminated by one or both parties. Even when provisions for annual or periodic reviews were
included, we found that most agreements were never reevaluated. Without a periodic
reassessment, there is no assurance that agreements continue to, among other things, (1) comply
with legislative and regulatory authority, (2) meet legislative criteria, (3) be mission-related, or (4)
protect the government’s interests. In addition, significant departmental funds may be wasted if
due diligence is not exercised. We believe that the Department needs to ensure that agreements
are reviewed and revised or renewed as appropriate, at least every three years.



In responding to our draft report, the Assistant General Counsel for Administration stated that
the General Law Division has prepared five model agreements that are available on the
Division’s web site. We changed our report on page 34 to reflect this information. In addition,



        49
             IPE-10310.

        50
             IPE-10310, May 1998.

                                                   36
U.S. Department of Commerce                                                                  Final Report IPE-9460
Office of Inspector General                                                                         September 2000



other clarifications were made to our discussion on contracting officer and legal review of
agreements to respond to the Assistant General Counsel’s written comments.

C.       Departmental policies and procedures for agreements are clearly needed

A thorough policy on agreements is a necessary resource for officials preparing and reviewing
agreements, by providing such information as when an agreement is necessary, what level of
approval is required, and what specific language is needed. Considering the problems discussed
above and in our separate reports on bureau and Office of the Secretary agreements, we
recommended that the Department prepare formal policies and procedures, such as a Department
Administrative Order or handbook, outlining the types of agreements that can be entered into by
Commerce bureaus; the minimum necessary content and steps for preparing agreements;
standard language or form agreements; and the review, approval, and renewal policies and
procedures that should be followed by all Commerce bureaus.

This guidance should be comprehensive, specifying how each type of agreement should be
prepared and reviewed. For example, some agreements may only require programmatic and legal
review, while others should be reviewed by procurement, budget, legal, and program offices. At
a minimum, the new guidance should:

l        Require all Commerce agreements to include at least the following items: citation of legal
         authorities, applicable written justifications, signatures by the appropriate bureau and
         departmental officials, total project costs, budget summaries, and termination dates and/or
         review periods.51 There should also be formal procedures that ensure agreements
         prepared by external parties contain all necessary information.

l        Require bureaus to prepare D&Fs for transfers authorized by the Economy Act.

l        Direct bureaus to establish appropriate internal review processes for each type of
         agreement. Explicitly state the responsibility of each bureau, the minimum path of review
         and approval, and thresholds for review. The bureaus will be responsible for designating



         51
            We recognize that there may be a few instances where some of these items may not be required in an
agreement. Two known exceptions are (1) the citation of legal authority, which may not be appropriate for an
international agreement and (2) termination dates. In both cases, the legal authority used and/or the reason why a
termination date is not included in the agreement should be adequately documented in the official agreement file. As
discussed on page 30 where a termination date is not feasible, the agreement should have a provision for a periodic
review and amendment by mutual consent of the parties.

                                                         37
U.S. Department of Commerce                                                    Final Report IPE-9460
Office of Inspector General                                                           September 2000



       which of their operating units will perform these required functions. Such bureau
       guidance should also be written.

l      Direct the bureau budget offices to review budget documentation for every agreement and
       to approve the obligation of resources to a performing agency or entity or the receipt of
       reimbursements/advances from a sponsoring agency or entity.

l      State that Economy Act orders and supporting D&Fs, above a specific threshold, must be
       reviewed by Office of Acquisition Management contracting officers. Economy Act
       orders below that threshold should be delegated to bureau contracting officers or other
       designated officials for review.

l      Provide generic, Department-wide standards for which agreements require OGC and/or
       bureau counsel review. For those bureaus that require greater oversight, OGC should
       negotiate more specific criteria for legal review of their agreements.

l      Require the bureaus to perform initial and periodic review of programmatic justifications
       for every agreement. Reviews should be at least every three years.

To be effective, any new guidance should be widely distributed. To accomplish this, the
Department should encourage the bureaus to provide training on how to prepare and process
agreements. In addition, the Department should make all information relevant to preparing and
processing agreements easily accessible by posting documents on its Intranet and presenting this
information at any relevant departmental and bureau conferences. Any subsequent changes in
federal, departmental, or agency regulations or procedures and applicable laws should also be
widely distributed. As we recently reported, NIST has made some interesting efforts to widely
distribute its guidance.52 Its Intranet includes sample agreements, contact names, links to relevant
regulations and laws, and decision trees to help program officials decide which agreements are
appropriate. Although a paper copy of its administrative manual may always be necessary, the
Intranet site appears to be more user friendly, which hopefully encourages better compliance with
the applicable requirements.

We are pleased to report that the Department has agreed with our observations and
recommendations with regard to creating departmental policies and procedures. In responding to
our September 1998 report which made these recommendations, the Chief Financial Officer and
Assistant Secretary for Administration stated that “We agree with the recommendation to


       52
            IPE-10854.

                                                38
U.S. Department of Commerce                                                      Final Report IPE-9460
Office of Inspector General                                                             September 2000



establish uniform Department-wide policies and procedures for use by all bureaus, and will work
in consultation with the Office of Inspector General (OIG), the Office of the General Counsel,
and other interested stakeholders on their development.” Further the Chief Financial Officer
stated that “We agree that, once issued, Departmental guidance should be broadly disseminated
and electronically accessible.”53

The Department, in conjunction with OGC, has worked very hard to develop an Interagency
Agreements Handbook that promotes uniform implementation of agreements throughout the
Department. The Handbook contains departmental policies and procedures pertaining to
agreements, while also giving due consideration to the various program requirements and
procedures present at the bureau level. Over the past year, numerous meetings between
cognizant officials in all the bureaus have occurred to discuss the contents of the Handbook and
draft versions of the Handbook has been widely circulated for comment several times. At
present, the Office of Acquisition Management is examining an alternative approach to
agreements between Commerce operating units. However, the issuance of the Handbook
remains a high priority for the Department and officials anticipate that it will be issued in the very
near future.



In responding to our draft report, both the Acting Director, Office of Executive Assistance
Management and the Assistant General Counsel for Administration stated that they were in
agreement with our recommendation and would continue to work together to ensure that the
Handbook is issued .

D.     Many bureaus also need policies and procedures for agreements

During our Department-wide review of agreements, we found just one bureau (NIST) that had a
comprehensive set of guidelines for processing agreements. We also found that a few bureaus
already have guidance covering just certain types of agreements. For example, NOAA prepared
a directive for its agreements in October 1992, and Census prepared guidelines for its agreements
in July 1997. NOAA’s directive outlines agreement responsibilities and policies of each NOAA
office, and Census’s guidelines provide the contents and steps for preparing agreements for each
Census office. In particular, Census’s guidelines require a citation of legal authority, a statement
of work, financial information, termination provisions, and authorizations.



       53
            IPE-10418.

                                                  39
U.S. Department of Commerce                                                   Final Report IPE-9460
Office of Inspector General                                                          September 2000



In addition to the NOAA guidance, two of its line offices, NMFS and OAR, have developed
supplemental guidance and checklists to follow while preparing agreements. OAR’s checklist
includes basic information about the agreement (such as type of sponsor and period of
performance), substantive justifications, applicable legal authority, strategic plan elements,
budget information, billing basis and cycle, and waiver justification for not seeking advance
funding from nonfederal sources. The official preparing an agreement must mark certain boxes
to identify which option in each section applies. Once completed, the checklist will remain on file
with the agreement and serve as an assurance that each of the required elements has been
addressed. If consistently applied and regularly updated, the checklist should improve
compliance with federal requirements for agreements.

However, most of the bureaus or line offices that we reviewed either had no guidance on
agreements, or the guidance that was in use was incomplete in some way. Accordingly, we made
recommendations in our individual reports to these bureaus and line offices to put in place
internal policies and procedures that outline the steps for preparing and processing agreements.
In most cases, we recommended that the bureaus and line offices ensure that their guidance was
consistent with the forthcoming departmental Handbook, as discussed in the previous section.
The status of each bureau or line office’s implementation of our recommendation is shown in
Table 3 below.

Table 3: Status of Implementation of OIG Recommendations on Guidance for Agreements
   Bureau or        Recommendation                                Status
   Line Office       on Guidance?
 OS                           Yes         The Department has concentrated its efforts on issuing
                                          the Interagency Agreements Handbook. Once it is
                                          issued, OS will begin work on appropriate internal
                                          policies and procedures for OS offices to use in
                                          preparing and implementing agreements.
 MBDA                         No          Not applicable
 PTO                          No          Not applicable




                                                40
U.S. Department of Commerce                                              Final Report IPE-9460
Office of Inspector General                                                     September 2000



 NTIS                         Yes   Since the issuance of our report, the Secretary of
                                    Commerce has recommended that NTIS be closed at
                                    the end of fiscal year 2000 and some of its functions
                                    transferred to the Library of Congress. In that same
                                    period, NTIS also lost one-third of its staff and is
                                    currently operating under a hiring freeze, which has
                                    strained its resources Given this situation, developing
                                    guidance for agreements has understandably not been
                                    a priority for bureau management. In addition, NTIS
                                    has been waiting on the guidance from the
                                    Department before preparing a set of guidelines
                                    specific to NTIS agreements. At this time, the fate of
                                    NTIS is unknown until the Congress takes action.
                                    Therefore, bureau officials told us that if NTIS
                                    appears to have a future when the Department’s
                                    Handbook is issued, they will begin work on guidance
                                    for NTIS’s agreements.
 Census                       Yes   Census has developed its own internal guidance for
                                    the preparation and review of bureau agreements.
                                    This guidance is in the final review process and
                                    officials anticipate that it will be issued by September
                                    30, 2000. Census’s guidance considers the contents
                                    of the draft versions of the Department’s Handbook
 NOAA                         Yes   NWS completed a chapter for its guidance covering
 NWS                                Economy Act agreements. This chapter, and
                                    subsequent chapters as they are completed, will be
                                    disseminated to NWS’s field offices. NWS is waiting
                                    on the issuance of the Department’s Handbook before
                                    it issues final policies and procedures to ensure that a
                                    rewrite will not be necessary.




                                          41
U.S. Department of Commerce                                               Final Report IPE-9460
Office of Inspector General                                                      September 2000



 NOAA                         Yes   NMFS is still operating under the guidance that was in
 NMFS                               place at the time of our inspection. Officials have
                                    started drafting new guidance that will be in-line with
                                    the Department’s Handbook. However, they have
                                    decided to wait to and issue NMFS’s final guidance
                                    after the Department’s Handbook is issued to ensure
                                    that a rewrite will not be necessary. NMFS officials
                                    estimate that they will have their guidance issued in
                                    final form approximately one month after the issuance
                                    of the Department’s Handbook
 NOAA                         Yes   OAR began developing its guidance in 1999, but after
 OAR                                consultation with OGC and NOAA management,
                                    decided to wait until the Department’s Handbook is
                                    issued to proceed any further.
 ITA                          Yes   ITA issued interim guidance for preparing and
                                    processing agreements in July 1999. Since then, ITA
                                    and OGC officials having been working together on
                                    developing more detailed chapters for the guidance
                                    that cover the different legal authorities that ITA has to
                                    enter into agreements. It is anticipated that the final
                                    guidance will be issued sometime in fall 2000.
 NIST                         No    Not applicable




                                          42
U.S. Department of Commerce                                                             Final Report IPE-9460
Office of Inspector General                                                                    September 2000



VI.     Commerce Bureaus Generally Do Not Adequately Track and Control Agreements

During our reviews of Commerce bureaus and the systems and processes they have for
managing agreements, we found that few bureaus were able to adequately track and control their
agreements. Some bureaus keep lists of agreements for their individual operating units, but no
comprehensive departmental inventory exists. As a result, we found inconsistent reporting of
agreements among Commerce bureaus. The bureaus had different ways of classifying
agreements, and frequently overlooked agreements between their bureau and another Commerce
agency. In some cases, bureaus still record expired agreements and some record open but
inactive agreements. Consequently, we experienced significant difficulty collecting an accurate
inventory of agreements by agency or, in the case of NOAA, by major line office.

Generally, Commerce bureaus had no policies or procedures in place to guide their operating
units and headquarters officials in the proper handling of agreements. Some agencies have
implemented centralized systems, while others rely on individual programs to catalog
agreements. MBDA, NIST, ESA, TA, EDA, and BXA all maintain centralized databases.
NOAA’s National Environmental Satellite, Data, and Information Service’s (NESDIS) Office of
International and Interagency Affairs was updating its database of all NESDIS agreements. OS,
ITA, NOAA headquarters offices, and NWS, on the other hand, kept no centralized lists of
agreements, while OAR’s and NMFS’s lists were incomplete.

Some bureaus can use existing financial and accounting computer systems to provide
information on agreements. For example, NOAA and Census each track costs associated with
individual reimbursable projects, which can be the basis for determining how many reimbursable
agreements exist and how much in resources is committed to these activities. Similarly, because
obligation agreements involve payments, NOAA’s and Census’s finance offices can obtain
information on obligation agreements. However, there is no similar ability to compile a
comprehensive listing of unfunded agreements.54

As the pilot for implementation of the Commerce Administrative Management System (CAMS),
Census has been able to develop and implement modules that could be useful in setting up a
database of agreements. The reimbursable module can track and act as a repository of
information about reimbursable agreements. In addition, the module pre-screens reimbursable
agreements through the interactive input form; it would not allow someone to enter a request for
a reimbursable without filling in all required fields.



        54
            In an earlier report to the NOAA Comptroller, we expressed our concerns about NOAA’s ability to
produce a concise, credible inventory of interagency agreements. (Preliminary Findings Regarding Inspection Work
on NOAA Interagency Agreements, IRM-6291, September 1994)

                                                      43
U.S. Department of Commerce                                                     Final Report IPE-9460
Office of Inspector General                                                            September 2000




A central database of agreements would be a useful management and administrative tool. The
Government Performance and Results Act requires federal agencies to describe coordination and
planning with other agencies on shared or similar functions and programs. In July 1997, the
House Science Committee criticized Commerce’s strategic plan for failing to adequately discuss
coordination of cross-cutting programs. The Department has since included more information
about program “linkages” in its strategic plan for 1997-2002. For each strategic theme (economic
infrastructure, science/technology/information, and resource and asset management and
stewardship), the Department describes several linkages with other federal and nonfederal parties
that support these strategic themes. Basic information from a departmental database could be
used to further develop these linkages.

From an administrative perspective, a central database of agreements would help Commerce
bureaus in administering and maintaining their agreements. The FAR requires that the
Department maintain centralized files for contracts and grants in order to provide better control
and oversight. We believe that there is nothing unique about agreements that would preclude
them from being similarly reviewed and maintained. By having relevant dates in the system,
programs could easily identify which agreements are due for renewal, termination, or review.
Also, officials could quickly respond to inquiries on particular agreements by accessing the
system by identifying number, project title, or contact name.

During our earlier review, OS officials agreed that a database of summary information for each
agreement should be established and maintained, allowing OS and the bureaus to quickly obtain
agreement information and determine what agreements exist. We believe that at least the
following summary information on each agreement should be stored in an electronic database:
purpose or title, parties, termination date, review period, funding information, legal authority, and
contact person or office. The database could also be used to establish a document numbering
system. Each entry would be assigned a unique number, which would then be placed on the
actual agreement and any related documents. Commerce bureaus could then better identify and
track the physical documents.

Given the large number of agreements and their importance to achieving Commerce’s mission, a
comprehensive database of agreements would help management and other responsible officials
better control and maintain their agreements. OS officials suggested to us that the Department’s
Risk Management Team evaluate the composition of a Department-wide database of agreements.
Because a Department-wide database would be a major effort and possibly involve significant
resources to develop, we agree that the Department should carefully consider what approach to
take in creating a central database of agreements.



                                                 44
U.S. Department of Commerce                                                    Final Report IPE-9460
Office of Inspector General                                                           September 2000



We have identified two options for creating a central list of agreements. First, the Department
could develop one standard system or database program that each bureau can access to add,
modify, or delete agreements. Alternatively, each bureau could maintain its own database that is
compatible with requirements specified by the Department. The Department would define which
data elements are required for a centralized list and then require the bureaus to periodically
provide the information electronically to be uploaded into the central list at the Department level.

In responding to our report on Office of the Secretary agreements, the former Chief Financial
Officer and Assistant Secretary for Administration stated that he agreed with our
recommendation for central tracking of agreements and “Although the second option identified
under this recommendation (a bureau-maintained ‘feeder system’) appears to be most workable,
we will consult with the appropriate parties, e.g., technical support personnel, to determine the
best method for meeting this objective.”55 To date, however, little action has been taken on our
recommendation. The biggest impediment to developing the database, finding the funds to pay
for it, was eliminated when funding was made available in fiscal year 2000. However, because
the planning for the database is in its early stages, the Department has no estimate as to when the
database will be operational.

Most of the bureaus and line offices we reviewed also had similar problems as the Department in
adequately tracking and controlling their agreements. Accordingly, we made recommendations
in our individual reports to these bureaus and line offices to develop a database to track and
control their agreements. In most cases, we recommended that the bureaus and line offices
ensure that their databases were compatible with the forthcoming Department-wide database for
agreements, as discussed above. The status of each bureau or line office’s implementation of our
recommendation is shown in Table 4 below.

Table 4: Status of Implementation of OIG Recommendations on Agreements Database
   Bureau or             Recommendation                            Status
   Line Office            on Database?
 OS                           Yes         Once the Department-wide database for agreements is
                                          completed, OS will begin work on a centralized
                                          system to adequately inventory, track, and control
                                          OS’s agreements.
 MBDA                         No          Not applicable



       55
            IPE-10418.

                                                45
U.S. Department of Commerce                                             Final Report IPE-9460
Office of Inspector General                                                    September 2000



 PTO                          Yes   Prior to the issuance of our draft report, in part in
                                    response to our request for a listing of agreements,
                                    PTO developed a comprehensive agreements database
                                    to better manage its agreements. This database has
                                    been operational for approximately two years.
 NTIS                         Yes   NTIS had an agreements database, but it was
                                    unnecessarily complex and difficult to use. NTIS
                                    redesigned its database and it is undergoing final
                                    testing. Officials anticipate that it will be fully
                                    operational by September 30, 2000, at which point
                                    NTIS intends to train users in how to use it.
                                    Notwithstanding its proposed closure, NTIS acted to
                                    implement this recommendation in order to improve
                                    financial record keeping and to assist in the orderly
                                    termination of existing obligations should that prove
                                    necessary.
 Census                       Yes   Census has hired a contractor to develop a Internet-
                                    based agreement tracking system. The database
                                    became operational at the end of July 2000.
 NOAA                         Yes   NWS has developed a database for its agreements and
 NWS                                all agreements active in fiscal years 1999 and 2000
                                    have been entered.
 NOAA                         Yes   NMFS developed a database for tracking its
 NMFS                               agreements. Data entry in the new database was
                                    started in November 1998. NMFS recognizes that it
                                    may need to make some changes to its database
                                    depending on what is required for the Department-
                                    wide database for agreements.
 NOAA                         Yes   OAR is currently tracking its agreements using a word
 OAR                                processing program. However, it is developing a
                                    database that will allow for additional information to
                                    be added and for users to query the system. OAR
                                    anticipates that its new database will be operational on
                                    or before October 1, 2000.



                                          46
U.S. Department of Commerce                                                   Final Report IPE-9460
Office of Inspector General                                                          September 2000



 ITA                          Yes         ITA officials have not taken any action to establish a
                                          centralized system to track and control ITA’s
                                          agreements. They are waiting for the Department-
                                          wide database for agreements to be completed before
                                          beginning work on the bureau’s database, as they
                                          want to ensure that the two databases are compatible.
 NIST                         No          Not applicable




In responding to our draft report, the Acting Director, Office of Executive Assistance
Management stated that staff in the Office of the Secretary will work with appropriate officials in
the Office of Inspector General, Office of the General Counsel, and the operating units to
thoroughly review the needs of the Department and determine the information to be included in
the database.




                                                47
U.S. Department of Commerce                                                         Final Report IPE-9460
Office of Inspector General                                                                September 2000



VII.   Some Commerce Bureaus Need to Improve Their Systems and Procedures
       to Better Ensure Full Cost Recovery under Reimbursable Agreements

Considering the significant amount of reimbursable work performed by Commerce bureaus, full
cost recovery is a serious concern. Commerce bureaus are required by federal law, OMB
Circular A-25 on user fees, the Department of Commerce Accounting Principles and Standards
Handbook, and internal bureau guidance to achieve full cost recovery for work performed under
certain agreements. In particular, the Economy Act requires federal agencies to recover actual
costs for reimbursable work performed for other federal agencies. Commerce’s joint project
authority requires agencies performing joint projects to apportion full costs on an equitable basis.

An agency’s failure to recover actual costs or to equitably apportion full costs in a joint project
could also result in a circumvention of the appropriation process because it could cause the
agency to undercharge or overcharge the sponsoring organization. A performing agency’s
appropriated funds may be improperly (1) depleted to the extent that the labor and other costs
that should be charged to sponsored project agreements are charged to appropriated funds, or (2)
augmented to the extent that an agency receives amounts in excess of its actual costs.
Furthermore, the ordering agency’s appropriation can be improperly augmented if does not
reimburse the performing agency for its full costs.

We found many examples where Commerce bureaus do not adequately account for and recover
full costs for reimbursable activities. In June 1996, we reported that OAR’s lack of a time
management system for recording labor costs and charging inadequately supported overhead
rates were the primary causes for OAR’s inability to achieve full research cost recovery.56 The
report estimated that OAR did not recover $27.9 million of labor costs and associated overhead
costs for fiscal years 1993 and 1994. A 1995 OIG audit report found that NMFS did not recover
$9.3 million in labor costs and associated overhead for the same two fiscal years.57

In a more recent report,58 we discussed an agreement between NMFS and the Department of
Interior’s National Biological Service that required NMFS to conduct research in support of the
national marine mammal tissue bank and the Alaska marine mammal tissue archival project for
$70,000, in fiscal year 1997. Although the Economy Act was cited as the authority to transfer
funds, NMFS did not charge labor and NOAA overhead to Interior and did not obtain a waiver,


       56
            OAR’s Cost Recovery for Sponsored Research Needs Improvement, STL-7658, June 1996.
       57
            NMFS Cost Recovery for Sponsored Research Needs Improvement, STL-6528, May 1995.
       58
            IPE-10775.

                                                    48
U.S. Department of Commerce                                                            Final Report IPE-9460
Office of Inspector General                                                                   September 2000



as required by the NOAA Budget Handbook. We also found several examples of insufficient cost
recovery in NWS agreements.59 For example, NWS subscription fees for the “Weekly Weather
Crop Bulletin”do not include postage, labor, or overhead, costs that are required to be recovered
under OMB Circular A-25.

For various reasons, several other bureaus do not even attempt to recover full costs. Our 1994
report to ITA cited the fact that it had not provided a complete and timely accounting of its costs
and expenditures to other parties to its agreements.60 During our 1998 review,61 ITA officials
stated that they did not think full cost recovery was a requirement and that the effort to identify
and recover full costs exceeded whatever marginal amount of funds they could identify. They
also claimed that recovering more than ITA’s additional direct costs is an augmentation of its
appropriation. We disagreed with ITA’s position. In our fiscal year 1998 and 1999 financial
statements audit reports, we have continued to stress that ITA needs to recover the full cost of the
various trade events and seminars it sponsors to ensure that it is in compliance with OMB
Circular A-25.62

Similarly, BXA officials recently told us that they do not try to recover full costs for the salaries
of the staff doing the work they were already paid for by BXA, such as consultations with foreign
governments to establish or update foreign export controls. This policy is in stark contrast to
how BXA managed a fee-based seminar program for exporters and government officials on the
export licensing process. In 1994, we reported that BXA routinely charged seminar fees at rates
that were intended to produce a profit.63 In the majority of cases, fees were set without
consideration of cost, and revenues from individual seminars substantially exceeded the
seminars’ expenses. OGC determined that BXA could not set seminar budgets so as to
consistently collect profits from seminars, although the agency could use surplus funds that were
inadvertently collected for related export activities.



        59
             IPE-10417.

        60
             Interagency Agreements Conducted by the International Trade Administration, IRM-6290, September
1994.
        61
             IPE-10752.

        62
          U.S. Department of Commerce Fiscal Year 1998 Consolidated Financial Statements, FSD-10899-9-
0001, March 1999 and U.S. Department of Commerce Fiscal Year 1999 Consolidated Financial Statements, FSD-
11911-0-0001, March 2000.
        63
             BXA Is Improperly Operating Its Seminar Fund, ADD-5127, March 1994.

                                                      49
U.S. Department of Commerce                                                    Final Report IPE-9460
Office of Inspector General                                                           September 2000



We have found other agencies that also deliberately charge more than their actual costs. Our
report on NTIS’s management of the CyberFile project found that it inappropriately charged a
cost-plus-a-percentage-of-cost fee to other federal agencies, a practice that maximized its fees but
fostered inefficient procurement practices.64

Unlike many of the other concerns we raise in this report, the problem here is not a lack of
guidance, but bureau officials’ failure to implement reliable systems for tracking reimbursable
costs. Therefore, we are recommending that the chief financial officer of each bureau fulfill, and
be held accountable for, his or her responsibilities to maintain systems and methodologies
consistent with departmental policies. If a bureau believes that full cost recovery is somehow
contrary to its mission or appropriations authority, then it must seek a written waiver from OMB
authorizing it to charge other parties less than the full cost of its activities.



In their responses to our draft report, the Acting Director, Office of Executive Assistance
Management and the Assistant General Counsel for Administration did not specifically address
this recommendation, but both stated that they were in agreement with our findings and
recommendations.




       64
            IPE-9364.

                                                50
U.S. Department of Commerce                                                   Final Report IPE-9460
Office of Inspector General                                                          September 2000



                                   RECOMMENDATIONS

We recommend that the Chief Financial Officer and Assistant Secretary for Administration and
the Acting General Counsel complete actions, as outlined in our 1998 report on Office of
Secretary agreements, and in this report, to:

1.     Complete development and implementation of uniform Department-wide policies,
       procedures, and guidance for the use, management, and oversight of interagency and
       other special agreements (see page 23).

2.     Establish a centralized system to adequately inventory, track, and control Commerce’s
       agreements (see page 42).

In addition, we recommend that the Chief Financial Officer and Assistant Secretary for
Administration and the Acting General Counsel direct appropriate officials to take the following
actions for the Department of Commerce:

3.     Clarify when FAR requirements for procurement actions apply to reimbursable funding
       and ensure that bureaus and line offices are adhering to the FAR requirements for
       contracts entered into under reimbursable agreements, including preparing sole source
       justifications and advertising all sole-source contracts in the Commerce Business Daily
       (see page 18).

4.     Inform program officials about how to determine the most appropriate instrument(s) for
       an anticipated funds transfer to a private entity–procurement contract, grant, cooperative
       agreement, or other type of agreement–including:

       C       Encouraging program officials to seek guidance from OGC and providing contact
               information for the various OGC divisions with expertise in these areas.

       C       Addressing the differences and benefits of the various types of agreements during
               departmental training sessions on procurement contracts, financial assistance, or
               other agreements (see pages 18 and 22).

5.     Hold the bureau chief financial officers and other bureau management accountable for
       implementing reliable systems for recovering full costs on reimbursable activities (see
       page 50).




                                               51
U.S. Department of Commerce                                                                                     Final Report IPE-9460
Office of Inspector General                                                                                            September 2000



                                                        APPENDIX A
                                                     Glossary of Acronyms

BXA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Export Administration
CAMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Commerce Administrative Management System
D&F . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Economy Act determination and finding
EDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Economic Development Administration
ESA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Economic Statistics Administration
FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Aviation Administration
FAR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Acquisition Regulation
GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . General Services Administration
IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Internal Revenue Service
ITA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . International Trade Administration
ITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Institute for Telecommunications Sciences
MBDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Minority Business Development Agency
MBOC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Minority Business Opportunity Committees
NASA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Aeronautics and Space Administration
NESDIS . . . . . . . . . . . . . . . . . . . . National Environmental Satellite, Data, and Information Service
NIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Institute of Standards and Technology
NMFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Marine Fisheries Service
NOAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Oceanic and Atmospheric Administration
NTIA . . . . . . . . . . . . . . . . . . . . . . . National Telecommunications and Information Administration
NTIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Technical Information Service
NWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Weather Service
OAR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Oceanic and Atmospheric Research
OGC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of the General Counsel
OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Management and Budget
OS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of the Secretary
PTO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Patent and Trademark Office
TA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Technology Administration
USEAC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Export Assistance Center
US&FCS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. and Foreign Commercial Service




                                                                     52
U.S. Department of Commerce                                               Final Report IPE-9460
Office of Inspector General                                                      September 2000


                                        APPENDIX B
                      Office of Administration Response to Draft Report




                                             53
U.S. Department of Commerce        Final Report IPE-9460
Office of Inspector General               September 2000




                              54
U.S. Department of Commerce        Final Report IPE-9460
Office of Inspector General               September 2000




                              55
U.S. Department of Commerce                                             Final Report IPE-9460
Office of Inspector General                                                    September 2000


                                       APPENDIX C
                   Office of the General Counsel Response to Draft Report




                                            56
U.S. Department of Commerce        Final Report IPE-9460
Office of Inspector General               September 2000




                              57
U.S. Department of Commerce        Final Report IPE-9460
Office of Inspector General               September 2000




                              58
U.S. Department of Commerce        Final Report IPE-9460
Office of Inspector General               September 2000




                              59
U.S. Department of Commerce        Final Report IPE-9460
Office of Inspector General               September 2000




                              60
U.S. Department of Commerce        Final Report IPE-9460
Office of Inspector General               September 2000




                              61
